      OFFICE OF INSPECTOR GENERAL
  U.S. GENERAL SERVICES ADMINISTRATION



SEMIANNUAL REpORT
, TO THE CONGRESS
  APRIL   1, 1999 .. SEPTEMBER 30, 1999
           Foreword




 This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes tHe activities of the Office of Inspector General (OIG)
for the 6-month reporting period that ended September 30, 1999.

During this reporting period, we continued to work with GSA to identify
sound business management and operational improvements in the Agency :~,
programs and operations. We issued a number of reports which address
major management issues facing the Agency, including GSA s Year 2000
conversion efforts, the management controls and physical security of various
Local Area Networks, controls over financial systems transactions, the
security of Federal buildings, and health and safety issues affecting Federal
employees. We also reviewed aspects of other GSA programs, including the
Multiple Award Schedule Program, the Antenna Program, and the courthouse
construction contracting practices.

I want to take this opportunity to thank the GSA Administrator, GSA s senior
managers, and the Congress for their support. I also want to express my
appreciation for the accomplishments of all OIG employees and commend
them for their continued professionalism, dedication, and willingness to
accept new challenges.




WILLIAM R. BARTON
Inspector General
October 29, 1999
                                                                   Page

Summary ofOIG Performance ............................... v

Fiscal Year 1999 Results ................................... vi

Executive Summary ......................................vii

OIG Profile .............................................. 1

Major Issues ............................................. 2

Other Reviews of GSA Programs ............................ 14

Working with the Government Performance and Results Act ....... 19

Procurement Activities ................................... .20

Prevention Activities ..................................... .27

Review of Legislation and Regulations ....................... .29

Statistical Summary of OIG Accomplishments .................. 33

Appendices

Appendix I-Significant Audits from Prior Reports .............. .41

Appendix II-Audit Report Register. . ........................ .44

Appendix III-Audit Reports over 12 Months Old with Final
 Action Pending ......................................... 54

Appendix IV-Delinquent Debts .............................. 62

Appendix V--Reporting Requirements ......................... 63




This semiannual report may be accessed on the Internet at the
following address: http://www.gsa.gov/staff/ig/publications.html




                                              Office of Inspector General iii
OIG Accomplishments   April 1, 1999-September 30, 1999

                      Total financial recommendations                                $41,534,889

                      These include:

                      • Recommendations that funds be put to better use              $20,120,929

                      • Questioned costs                                             $21,4] 3,960

                      Audit reports issued                                                104

                      Referrals for criminal prosecution, civil
                      litigation, and administrative action                               269

Results Attained      Management decisions agreeing with audit
                      recommendations, civil settlements, and
                      court-ordered and investigative recoveries                     $83,068,784

                      Indictments and informations on criminal referrals                  10

                      Cases accepted for criminal prosecution                             16

                      Cases accepted for civil action                                      8

                      Successful criminal prosecutions                                     9

                      Civil settlements                                                    9

                      Contractors debarred                                                27

                      Contractors suspended                                               27

                      Employee actions taken on administrative
                      referrals involving GSA employees                                    3




                                                                       Officc of Inspector General v
                                       During Fiscal Year (FY) 1999, OIG activities resulted in:

                                       .. Over $367 million in recommendations that funds be put to better use and
                                          in questioned costs. If adopted, these recommendations ultimately result
                                          in savings for the taxpayer.

                                       .. Management decisions to put funds of $401 million to better use based on
                                          OIG recommendations.

                                       e   195 audit reports that assisted management in making sound decisions
                                           regarding Agency operations.

                                       .. 6 implementation reviews that tracked the progress of actions in response
                                          to internal audit reports.

                                       .. $39 million recovered as a result of management decisions to recover
                                          funds, civil settlements, court-ordered recoveries, and investigative
                                          recoveries.

                                       .. 135 new investigations opened and 136 cases closed.

                                       .. 29 case referrals (53 subjects) accepted for criminal prosecution and
                                          12 case referrals (21 subjects) accepted for civil litigation.

                                       • 16 criminal indictments/informations and 15 successful prosecutions on
                                         criminal matters referred.

                                       .. 13 civil settlements.

                                       .. 27 referrals to other Federal agencies for further investigation.

                                       .. 11 employee actions taken on administrative referrals involving GSA
                                          employees.

                                       .. 27 contractor suspensions and 30 contractor debarments.

                                       .. 350 legislative matters and 52 regulations and directives reviewed.

                                       .. 2,563 Hotline calls and letters received of which 144 warranted further
                                          GSA action.




vi Semiannual Report to the Congress
                                  Summary




               During this period, we offered our wide variety of traditional services,
               including program evaluations, contract and financial auditing, management
               control reviews, investigative coverage, and litigation support in contract
               claims, civil fraud and enforcement actions, and criminal prosecutions. In
               addition, we provided professional assistance through enhanced consulting
               services designed to quickly inform management of potentially serious
               deficiencies or other concerns prior to completion of all analytical work and
               formal report issuance.

               Major Issues
               In this report, we have highlighted a number of reviews that address major
               management issues facing GSA. These reviews cover a variety of areas from
               technology and information systems to building security and health and
               safety issues. In November 1998, we had identified to members ofthe
               Congressional leadership the most serious management challenges currently
               facing the Agency. Some of these challenges include the areas of manage-
               ment controls, data security, aging information systems and protection of
               Federal buildings and personnel. The significant reports issued this period
               address many of these critical areas. Still others are being addressed through
               ongoing and planned reviews. Our efforts during this period focused on the
               following:

               Technology and Information Systems
               We continued to focus on GSA's Y2K computer system conversions. We per-
               formed a detailed analysis of conversion efforts by the Federal Supply
               Service (FSS) and Public Buildings Service (PBS). We found that although
               FSS has converted its mission-critical systems for Y2K compliance, full
               system testing has not been completed, and there is a lack of adequate testing
               guidance for systems administrators and programmers. Moreover, FSS has
               not developed an operational backup plan if mission-critical systems fail.
               Consequently, FSS cannot be assured that all data exchanges will operate
               correctly. Additional work must be performed to ensure the proper operation
    Y2K        of the system by the year 2000. PBS continues to make progress in
               converting and testing its mission-critical systems. However, to date, PBS's
               conversion efforts have focused only on the analysis and testing of
               application software. Additional testing of system components is needed.
               Because the Year 2000 date is rapidly nearing, our focus now is to evaluate
               the adequacy of the Agency's plan for maintaining continuity of operations in
               the event of potential system disruptions (page 2).

               The Agency is relying increasingly on Local Area Networks (LANs) to
LAN security   electronically access critical computer applications and data and to conduct
               its daily business. Our LAN security review found that plans have not yet
               been developed to ensure the continuity of operations in the event these


                                                                Office of Inspector General vii
                                           Executive Summary




                                         systems are disrupted. Also, we found that GSA data and computer
                                         applications are vulnerable to unauthorized access. Improvements in both
                                         management controls and physical security controls are needed to
                                         prevent unauthorized user access and the altering of LAN accounts, and also
                                         for the physical protection of LAN servers, backup tapes, and other LAN
                                         equipment (page 4).

                                         We also reviewed two processing systems for financial transactions designed
                                         to increase the efficiency of order preparation, improve overall financial
         Financial data                  management, and provide Internet access for data input, account status, and
                                         more accurate and timely data. We found both systems experienced delays in
                                         their implementation. However, we also found that when fully implemented,
                                         these systems can have a positive impact on the processing of financial
                                         information (page 5).

                                         In addition, our review of a commercially available electronic acquisition
                                         system that was intended to improve the entire acquisition process disclosed
                                         that many users viewed the system as cumbersome and lacking user-friendly
    Electronic acquisition               features, that basic procurement tasks take longer to perform than anticipated,
           system                        and that the data generated by the new system contains errors that are
                                         difficult to correct. Consequently, the reports generated by the system may
                                         not accurately reflect current procurement activities (page 6).

                                         Building Security Assessments
                                         The OIG continued to review GSA's progress in improving the security of
                                         Federal buildings. As part of an ongoing audit, we became aware of
         Security guards                 instances where contract security guards did not have proper background
                                         clearances and where the guards either failed the Federal Protective Service
                                         written test or failed to take the test. We concluded that the mission ofthe
                                         Federal Protective Service could be affected if security incidents were to
                                         occur involving improperly cleared contract guards (pagc 9).

                                         Health and Safety Issues
                                         During this reporting period, several health and safety concerns were reported
      Hazardous conditions               to management. We issued five alert reports noting hazardous conditions
                                         such as damaged asbestos insulation, elevator safety issues, and sewer and
                                         plumbing problems. These problems could pose health and safety problems
                                         to tenants (page 10). In another review, we looked at one region's efforts to
            Fire safety                  implement the GSA Fire Safety Program which calls for periodically
                                         assessing and correcting fire safety conditions in both Federally-owned and
                                         leased buildings. We found instances where fire safety reviews of various
                                         buildings were not scheduled as required and instances where scheduled
                                         reviews were not performed. Regional management agreed to take corrective
                                         action to ensure that both the proper scheduling and follow-up of reviews
                                         occurred as planned (page 11).

viii Semiannual Report to the Congress
                                Executive Summary




                              Multiple Award Schedule
                              As part of our ongoing review of GSA's Multiple Award Schedule (MAS)
                              Program, we reviewed the progress GSA was making to accurately set and
                              collect its industrial funding fee, which is necessary to operate the MAS
                              Program. We concluded that the current overall 1 percent fee is set higher
     Industrial funding       than necessary to recover costs and that stronger controls were needed to
                              ensure that contractors accurately report sales and promptly remit the related
                              fees to the Agency. The higher-than-needed fee can result in customers
                              paying higher prices than necessary. The timely and accurate collection of
                              fees is critical because GSA relies on these fees to operate the program
                              (page 12).

                              Other Program/Operational Reviews
                              The OIG continued its ongoing reviews of major programs and operations
                              throughout GSA's various components. One of these reviews, undertaken at
                              management's request, involved a baseline assessment of one regional
                              Antenna Program. GSA is the coordinating agency for the siting of commer-
  Communications antennas     cial antennas on rooftops of Federal buildings to support the rapidly growing
                              cellular and personal communications services industry. These commercial
                              antennas also generate rent income. We found that although GSA has
                              established a framework for conducting the program, controls are needed to
                              ensure that lessees pay the Government for the utility costs associated with
                              antenna operation. We also found that there was insufficient evidence to
                              ensure that the Government is protected against liability claims, and that
                              there was inadequate documentation to support negotiated prices (page 14).

                              We conducted a review of controls over telecommunications payments. We
                              concluded that controls did exist which ensured that legitimate payments
                              were made to vendors for services and items purchased. However, we also
Telecommunications payments
                              found that various purchases were misclassified, resulting in improper
                              financial statement records. For examplc, we found that computcr equipment
                              and software had been classified as contract services. GSA needs to properly
                              classify purchases to ensure accurate financial statement records (page 7).

                              We also reviewed the controls over several aspects of GSA's Reimbursable
                              Work Authorization (RWA) process. GSA uses its RWA process as its
                              agreement with customer agencies to make space alterations. We found
       RWAprocess             inconsistent recording of transactions, incomplete documentation, and
                              unreconciled performance data. These inaccuracies make it difficult for GSA
                              to recover its costs and can lead to customer dissatisfaction. Additionally,
                              GSA is in the process of implementing a new financial system that will place
                              RWA data entry responsibilities at the field level. The proper recording of




                                                                                Office of Inspector General ix
                                      transactions and file documentation will be essential if the new financial
                                      management system is to provide for a better managed RWA process
                                      (page 17).

    Regional reorganization           We also reviewed at management's request a regional reorganization
                                      designed to improve the delivery of services to the client agcncies. We
                                      concluded that the region made progress toward implementing the reorgani-
                                      zation. However, we pointed out that management should test, evaluate, and
                                      make changes as nceded (page 15). In addition, we performed evaluations of
      Lease administration            the effectiveness of lease termination clauses and lease enforcement actions
                                      by regional officials. In one region, the lease termination clauses being
                                      negotiated by realty specialists arc sometimes ambiguous and subject to
                                      misinterpretation. In another region, customers expressed dissatisfaction with
                                      the Agency in resolving problems with lessor performance (page 16).

                                      Working with Government Performance and
                                      Results Act
                                      In accordance with the Government Performance and Results Act of 1993,
                                      we performed reviews of selected GSA performance measures and made
                                      preliminary risk assessments of the internal controls over data supporting
                                      these performance measures. This period, we completed a review of two
                                      performance measures, Consolidation Savings and Market Penetration, as
                                      they relate to the Interagency Fleet Management System (IFMS) operations.
                                      We reported that GSA relies on data sources outside its control to support
                                      these two measures. Further, the data is not verified. Therefore, we
                                      concluded that there is a moderate risk that IFMS does not provide complete
                                      or accurate data to support the performance measures (page 19).

                                      Procurement Integrity
                                      An important part of the OIG's work is to support the Agency's contracting
                                      officers and to protect the integrity of GSA's procurement programs and
                                      operations by detecting and preventing fraud, waste, and abuse. Based on
                                      our audit and investigative work this period, the Government entered into
                                      nine settlement agreements in which companies agreed to pay over
                                      $1.4 million to resolve potential civil liabilities under the False Claims Act.
                                      These contractors provided office machines, phone equipment, construction
                                      services, and portable and laboratory emissions testing equipment. The
                                      settlements involved allegations that the companies had misrepresented their
                                      commercial discount practices, had falsified certifications on construction
                                      projects, and had conspired to substitute products in violation of the False
                                      Claims Act and other statutory and contractual provisions (pages 20-22).




x Semiannual Report to the Congress
  Executive Summary




We reviewed the Agency's courthouse construction and contracting practices.
We found that the Agency has been effective in controlling costs for
unwarranted upgrades and has worked effectively with the courts to bench-
mark costs and design decisions that meet design guides and congressionally
set funding limits. However, the Agency needs to better collect data on
contractor performance and evaluation and to improve its oversight of
contractors it uses to provide both pre-construction services during the design
phase of a project and construction inspections and changc ordcr cvaluations
during construction (page 22).

We also performed a review of the management controls for a regional small
purchase procurement program. We concluded that management needs to
monitor and verify small purchases made by bankcards, and to ensure that
individual cardholders perform monthly reconciliations and adhere to
spending limits. Without controls, there is little safeguard against potential
misuse or waste, and no assurance that all procurements meet program needs
(page 24).

Criminal Investigations
We completed an investigation that resulted in five former GSA building
supervisors pleading guilty to taking bribes from GSA contractors. The five
former employees were among a total of six Government employees and ten
private contractors arrested for participating in bribery and kickback schemes
in connection with maintenance and construction projects at various Federal
buildings and offices (page 20).

In addition, we completed a number of other investigations, including an
investigation into false representations made in the transfer of a barge crane
as excess property (page 25), and an investigation into the conversion by a
former captain of the Civil Air Patrol of Government surplus property for his
own personal use (page 26).

Summary of Results
The OlG made over $41 million in financial recommendations to better usc
Government funds, and in other program costs savings; made 269 referrals
for criminal prosecution, civil litigation, and administrative actions; reviewed
262 legislative and regulatory actions; and received 1,012 Hotline calls and
letters. This period, we achieved savings from management decisions on
financial recommendations, civil settlements, and investigative recoveries
totaling over $83 million. (See page v for a summary of this period's
performance. )




                                                   Office of Inspector General xi
                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG~' jive
                      components work together to perform the missions mandated by the
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. It
                      consists of:

                      " The Office of Audits, an evaluative unit staffed with auditors and analysts
                        who provide comprchcnsive audit coverage of GSA operations through
                        program performance reviews, internal controls assessments, and financial
                        and mandated compliance audits. It also conducts external reviews in
                        support of GSA contracting officials to cnsure fair contract prices and
                        adherence to contract terms and conditions. The ofllce also provides
                        advisory and consulting services to assist Agency managers in evaluating
                        and improving their programs.

                      .. The Office of Investigations, an investigative unit that manages a
                         nationwide program to prevent and detect illegal andlor improper activities
                         involving GSA programs, operations, and personnel.

                      .. The Office of Counsel, an in-house legal staff that provides legal advice
                         and assistance to all OIG components, represents the OIG in litigation
                         arising out of or affecting OIG operations, and manages the OIG
                         le~islative/regulatOly review functions.


                      .. The Internal Evaluation Staff, a multidisciplinary staff that plans and
                         directs field office appraisals and conducts internal affairs reviews and
                         investigations.

                      .. The Office of Administration, an in-house staff that provides information
                         systems, budgetary, administrative, personnel, and communications
                         services.

                      The OIG is headquartered in Washington, D.C., at GSA's Central Office
                      building. Field audit and investigation officcs are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in Auburn
                      and Cleveland.

Staffing and Budget   As of September 30, 1999, our on-board strength was 276 employees. The
                      OIG's FY 1999 budget was $32 million.




                                                                         Office ofInspector General 1
                                               Major Issues




                                      The OIG is committed to addressing major management issues facing GSA.
                                      We identified and shared with management some issues that present key
                                      challenges to the Agency. Our efforts this period include reviews and
                                      recommendations in several major areas that GSA management is taking
                                      steps to address. It is our intent to assist management in improving Agency
                                      operations.

Significant OIG                       Technology and Information Systems
                                      Year 2000 Conversion Efforts
Accomplishments
                                      In prior reviews of GSA's Year 2000 (Y2K) computer system conversion
                                      efforts, we reported that the Agency's initial planning for conversion needed
                                      to be improved, schedules had not been developed, progress was difficult to
                                      quantify, and much work remained. This period, we performed a more
                                      detailed analysis ofY2K conversion efforts related to GSA's mission-critical
                                      systems within the Federal Supply Service (FSS) and the Public Buildings
                                      Service (PBS) because of the essential functions each of these Services
                                      perfonns, and risks we identified during prior audits.

                                      Federal Supply Service
                                      FSS has converted its mission-critical systems. However, it is difficult to
                                      evaluate the adequacy of the work because FSS needs to fully document the
                                      changes made and complete all necessary testing phases. Risks exist because
                                      no test guidance was provided to systems administrators and programmers,
                                      an independent verification and validation was not utilized for the initial tests
                                      perfonned, and newly developed systems were not tested. Full system
                                      testing for converted systems, as well as those recently developed, were
                                      scheduled for completion by June 1999, 3 months past the Office of
                                      Management and Budget's deadline for Y2K conversion and implementation
                                      of mission-critical systems. Additional work is needed to ensure all data
                                      exchanges will operate correctly in the Year 2000, including testing the
                                      exchanges and including them in the Business Continuity and Contingency
                                      Plan.

                                      Our June 8, 1999 report recommended that the Commissioner, Federal
                                      Supply Service:

                                      • Develop system test guidance and provide the guidance to system
                                        administrators and programmers to ensure all necessary dates are
                                        consistently tested in all 18 mission-critical systems and adequate
                                        documentation is retained on tests perfonned.

                                      .. Fully employ the independent verification and validation contractors to
                                         review all systems.



2 Semiannual Report to the Congress
• Ensure that documented agreements have been finalized with all data
  exchange partners on Year 2000 data exchange formats, and test modified
  data exchange formats.

• Develop detailed contingency plans that ensure acceptable levels of output
  and services, establish business resumption teams, identify roles and
  responsibilities, fully test the plans, and revise as needed.

Public Buildings Service
While PBS has continued to make progress in converting and testing its
mission-critical systems, a significant amount of work remains to ensure that
these systems will operate correctly in the Year 2000. Risks exist within all
PBS mission-critical systems because PBS's convcrsion efforts have focused
on the analysis and testing of the application software only and have not
adequately considered all system components.

PBS has identified data exchanges with other Federal agencies and with other
GSA organizations, but still needs to determine the number of data exchanges
among its own systems and ensure that all exchanges are documented and
tested.

In our July 9, 1999 report, we recommended that the Commissioner, Public
Buildings Service:

• Ensure that all system components of each mission-critical system have
  been analyzed for potential Year 2000 problems, all potential problems
  corrected, and each system fully tested.

• Complete work to ensure all data exchanges will operate correctly in the
  Year 2000 and that formats for data exchanges are agreed upon,
  documented, and tested.

• Complete development of a comprehensive Business Continuity and
  Contingency Plan and conduct full testing of the plan.

Responsive management action plans were provided for implementing the
recommendations in the reports.

Because the Year 2000 is rapidly approaching, with the attendant risks that
exist in the conversion and testing, development of a Business Continuity and
Contingency Plan is crucial to ensure that GSA will be able to operate
effectively. We are currently reviewing the adequacy of the Agency's plan.




                                                  Office of Inspector General 3
                                              Major




                                      Local Area Network Security Risks
                                      Local Arca Nctworks (LANs) havc bccomc a kcy information tcchnology
                                      component for both government organizations and private sector companies
                                      by facilitating computer data processing and communication needs. A LAN
                                      serves as a data communication system that allows independent devices to
                                      communicate directly with each other within a moderately sized geographic
                                      area. GSA is increasingly relying on LANs to electronically access critical
                                      computer applications and data, making LANs a vital link in GSA's day-to-
                                      day business activities such as electronic mail. As more and more GSA
                                      applications evolve into the client-server computer environment, there is a
                                      commensurate increase in risk.

                                      Our LAN security review noted that plans have not been developed to ensure
                                      that adequate controls are provided and that contingency procedures are in
                                      place to ensure continuity of operations in the cvcnt that thcsc systcms arc
                                      disrupted. Additionally, GSA data and computer applications are at risk of
                                      unauthorized access. Management practices for providing user access to
                                      LANs, including adding and deleting LAN accounts and applying LAN
                                      passwords, are inconsistent and inadequate.

                                      In addition, physical security controls need to be implemented at all regional
                                      sites. In one region, while access to the server room is controlled by an
                                      electronic access control mechanism, the code to this lock has not been
                                      changed as needed to reflect contractor and Government employee turnovers,
                                      or changed on a periodic basis. Security was lax in that backup tapes were
                                      stored in an unlocked cabinet with the key in the lock, and LAN servers had
                                      keys in their locks, which would enable anyone with access to the server
                                      room to easily shut off LAN equipment.

                                      Finally, remote access is one of the most significant security concerns for
                                      GSA systems because these connections increase the risk of unauthorized
                                      system access by potentially anyone who can utilize communications
                                      software. Recognized by GSA as a security risk, the Chief Information
                                      Officer has begun to implement a standard approach for remote access to
                                      help mitigate these risks. Security policy and procedures on remote access
                                      are necessary to ensure that all remote access methods utilized within GSA
                                      have adequate system and operational controls to ensure that only authorized
                                      users are permitted to access LANs.

                                      The report concluded that GSA cannot protect the integrity, confidentiality,
                                      and availability of information that is stored and processed over its LANs
                                      without ensuring that all involved employees and contractors understand their
                                      roles and responsibilities for protecting LAN resources, and are adequately
                                      trained to perform required security responsibilities.


4 Semiannual Report to the Congress
        Major




Our September 30,1999 report recommended that GSA's Chief Information
Officer take necessary actions to:

• Ensure that all GSA components develop adequate LAN security plans.

• Establish agency-wide processes for managing GSA's LAN user accounts,
  configuration management, and contingency planning.

• Identify necessary security controls for remote access to GSA LANs.

• Establish policies and procedures to ensure that mandatory security
  awareness training is provided for all LAN users and administrators.

Management agreed with the recommendations in the report. The audit is
still in the resolution process.

Improving Automated Systems Usage
GSA introduced two new financial transaction processing systems in
FY 1998 and FY 1999. The Information Technology Solutions Shop was
developed to increase the efficiency of order preparation. The Integrated
Task Management System was developed to provide an automated financial
management tool for the Federal Acquisition Services for Technology and
Federal Information Systems Support programs.

The two systems are designed to operate as an integrated unit. Together, they
will provide Internet access for data input and account status and improved
timeliness and accuracy of data. Additionally, these systems perform vital
functions in relation to the interface with GSA's accounting and reporting
system that controls, records, classifies, and summarizes financial
transactions to meet Federal accounting requirements.

Agency management officials were interested in understanding why there had
been unusual delays in the implementation of the two systems throughout the
regions. We were able to determine that users did not recognize the benefits
of thc systems, problems with response times and interfaces were present,
and implementation timetables were unrealistic in terms of the systems'
capabilities.

When these systems are fully implemented, they have the potential to have a
positive impact on the financial information for the Information Technology
Solutions program. Overall, the average procurement processing cycle can
be reduced from 120 days to approximately 54 days.




                                                 Office of Inspector General 5
                                               Major Issues




                                      In our September 17, 1999 report to the Commissioner, Federal Technology
                                      Service, we recommended that management:

                                      " Continue to emphasize thc benefits of using the two automated systems.

                                      " Increase focus towards correcting system problems.

                                      • Work with regional representatives to review the current systems'
                                        implementation schedules and revise the timetables as necessary, based on
                                        system capabilities.

                                      The Commissioner agreed with the recommendations in the report. The audit
                                      is still in the resolution process.

                                      Assessing Acquisition System Implementation
                                      GSA acquired the commercially available Electronic Acquisition System-
                                      Standard Automated Contracting System (EAS-SACONS, the System) in
                                      1995 to provide PBS with a fully automated acquisition process from the
                                      initial requisition of supplies and services through the post-award contract
                                      audit phase. The System was planned to support easy multiple-user access to
                                      procurement data while improving contract award, administration, and
                                      closeout functions that were previously provided by the Federal Acquisition
                                      Management and Evaluation System. Additionally, the System was expected
                                      to provide benefits with electronic commerce capabilities through the
                                      introduction of electronic data interchange links with PBS vendors. Although
                                      the total contract award value was $5.2 million, the Agency has spent
                                      $5.4 million for the System and another $6.6 million in implementation costs.

                                      Our review found that many users viewed the new System as cumbersome
                                      and lacking in user friendly features. As a result, basic procurement tasks
                                      take longer to perform than under the previous system or by other means,
                                      including manual paper forms processing. Further, the new System did not
                                      provide users needed capabilities, such as an alert feature for purchases made
                                      under indefinite quantity contracts that have reached a ceiling level. Finally.
                                      the System has an automated interface with the Government Procurement
                                      Data System (GPDS), which meets Federal reporting requirements for
                                      disseminating procurement data to the Congress, the Executive Branch, and
                                      the private sector. However, the data generated by the System for the GPDS
                                      contains errors that are difficult and time consuming to correct, and many
                                      users enter required reporting data long after procurement actions are
                                      completed due to difficulties in using the new System. As a result, reports
                                      may not accurately reflect PBS's current procurement activities.




6 Semiannual Report to the Congress
        Major Issues




Organizational changes within the PBS procurement environment and a lack
of management support for the System throughout its implementation have
added to implementation risks, such as proceeding under accelerated time-
frames to deploy the System throughout all regional and field offices before
identified problems were fixed. Without an effective implementation plan,
users have little guidance on how to transition from their old procurement
practices to EAS-SACONS. Also, training should be provided to the users
for day-to-day operation of the System.

We concludcd that implementation of the System has rcached a critical point
as PBS addresses ongoing concerns among the user community, and
performs a post-implementation review of the System to evaluate its
performance. An opportunity exists to build a firm foundation for either an
improved EAS-SACONS or a replacement system.

Our May 12, 1999 report recommended that the Commissioner, Public
Buildings Service take the following actions:

• Establish business goals and procurement functions to be supported by an
  electronic acquisition and contract management system.

• Compare the costs and benefits of improving EAS-SACONS to potential
  replacement systems.

• Develop an effective implementation strategy for an improved EAS-
  SACONS or a replacement system.

• Direct the PBS Office of the Chief Information Officer and business line
  representatives to jointly develop performance measures to assess planncd
  operations for either an improved EAS-SACONS or a replacement system.

Management agreed with the recommendations in the report. The audit is
still in the resolution process.

Controls Over Telecommunications Payments
GSA delivers a full range of telecommunication and information technology
products and services to its customers. In FY 1997, the Agency spent over
$112 million for operations, excluding items such as salaries and
reimbursable expenses. The majority of these expenses were for other
contract services and equipment. Recent audits have revealed recurring
findings where increased emphasis on customer service has overshadowed
the need to comply with established controls, rules, and regulations.




                                                 Office of Inspector General 7
                                      Our review of controls over telecommunications payments disclosed that
                                      expenditures were made to vendors for legitimate purposes and the items
                                      purchased were verifiable. However, improved controls were needed over
                                      the classification of purchases to ensure proper reporting in the financial
                                      records. Government agencies are required to correctly classify expenditures
                                      in their financial records so that items such as equipment purchases over a
                                      certain dollar threshold are capitalized and depreciated. GSA did not always
                                      properly classify purchases, resulting in inaccurate financial statement
                                      records.

                                      More than $1.4 million of computer equipment and software had been
                                      chargcd as other contract services, rather than as equipment that should be
                                      capitalized and depreciated. Transactions were misclassified because
                                      individuals involved in the classification process were unfamiliar with the
                                      Agency's standards for capitalization and recognizing assets and related
                                      depreciated expenses, and pertinent guidance was not sufficiently clear.

                                      In our May 26, 1999 report, we recommended that the Commissioner,
                                      Federal Technology Service:

                                      • Establish a website to provide procurement personnel necessary guidance
                                        on classifying equipment and current policy updates to regulations and
                                        procedures.

                                      • Ensure that contract specialists and finance personnel receive periodic
                                        training on current policies and procedures.

                                      A responsive management action plan was provided for implementing the
                                      report recommendations.

                                      Building Security Assessments
                                      Building Security Countermeasures Program
                                      Since the 1995 bombing of the Federal Building in Oklahoma City, GSA's
                                      Federal Protective Service (FPS) has had an increased responsibility for
                                      security and law enforcement in Federal facilities. Because of the heightened
                                      sensitivity of the Agency's security mission, the OIG has directed its reviews
                                      towards major activities within FPS. As highlighted in our November 1997
                                      semiannual report, our review of FPS' criminal investigation function pointed
                                      out that the safety and protection of Federal employees and property is poten-
                                      tially being compromised because regional criminal investigation activities
                                      were operated autonomously, with no program accountability or measurable
                                      performance standards. GSA management has made significant progress in
                                      addressing the issues included in our prior audit reports and has made
                                      significant improvements to the safety and security of Federal employees and
                                      property.

8 Semiannual Report to the Congress
Tn the past 2 years, our audit activity has focused on GSA's upgrading of
security at Federal facilities. In a series of reports, we noted that GSA was
not accurately reporting the status of security enhancement equipment, had
misused enhancement funding, and had not planned for the use of about
$2 million of equipment found in storage. We have since also conducted
reviews at specific Government facilities to assess the status of security
countermeasures taken. As appropriate, we have notified Agency
management of our concerns where security enhancements need to be
improved.

This period, we began our final phase of the FPS program review which will
continue into FY 2000. This phase focuses on GSA's Contract Security
Guard Program. While this program review is currently ongoing, we have
already alertcd management to significant concerns warranting immediate
attention.

Contract Security Guards
GSA contracts with private security firms for both armed and unarmed
guards at Federal facilities. Currently, there are over 5,500 contract security
guards nationwide. Before a prospective employee can be assigned to a GSA
contract, the individual must undergo a limited criminal history background
check and pass a FPS-administered written examination.

This reporting period, during our ongoing audit, we became aware of
conditions that warranted immediate attention. In the two regions being
surveyed, we noted a number of instances where guards were on post without
proper background clearances. In addition, in one of the regions, guards
were on post after failing to pass the FPS written test, and others were on
post without ever having taken the test.

Considering the increased sensitivity and awareness of Federal building
security, the FPS mission could be severely affected if incidents were to
occur involving improperly cleared contract guards. As such, we suggested
that all FPS regions take measures to ensure that all guards on active duty
have received a valid up-to-date background clcarance and have passed the
required GSA test.

Since our review is continuing, the June 7, 1999 alert report to the Assistant
Commissioner, Federal Protective Service, was informational only and was
not subject to the resolution process. The subject matter will be addressed
further in our report on the Security Guard Program.




                                                   Office of Inspector General 9
                                       Health and Safety Issues
                                       Health and Safety Hazards
                                       GSA is being challenged to provide quality space to Federal agencies with an
                                       aging, deteriorating inventory of buildings. Property Management Centers,
                                       located throughout the country, meet the needs and requests of Government
                                       agencies that occupy space in the buildings. In general, the Center activities
                                       include procurement, asset management, and contract and lease administra-
                                       tion.

                                       During an ongoing Property Management Center review in one region, we
                                       found several health and safety concerns that warranted immediate reporting
                                       to management. Five alert reports were issued this period, noting hazardous
                                       conditions in five buildings. The reports discussed the presence of damaged
                                       asbestos insulation, elevator safety, and sewer and plumbing problems, often
                                       exacerbated by the age of the buildings.

                                       Damaged asbestos insulation posed a serious health and safety threat to
                                       occupants in two of the buildings. In one building, the insulation was located
                                       next to the door of an air handler that supplied air to two courtrooms and
                                       judges' chambers. In the second, the deteriorating and friable asbestos
                                       insulation was present in the path of air distribution systems throughout the
                                       facility. The potential for exposure to asbestos contamination with airborne
                                       fibers is significant in both buildings.

                                       Elevators did not always level accurately in one building, resulting in two
                                       injury accidents. The equipment is old and requires frequent attention and
                                       the contractor did not perform the necessary adjustments and replacement of
                                       worn or defective parts to assure reliable elevator operation. In another
                                       building, the elevators had not undergone routine, periodic or rated-load
                                       safety tests since 1987. There wcre no inspection records to show that the
                                       elevators met safety codes and were safe to ride. We pointed out that not only
                                       did contractors for both of these buildings receive payment for work not
                                       performed, they also jeopardized the safety of Federal employees and
                                       building visitors who use the elevators by not performing the required
                                       maintenance, tests, and inspections.

                                       Our on-site inspection of another building revealed that a toilet located in the
                                       boiler house, when flushed, flowed into a large sump well instead of into the
                                       city sewer, in violation of city, state, and national plumbing codes.
                                       Additionally, the pump in the sump well ejected rainwater mixed with the
                                       raw sewage from the toilet out onto the ground beside the boiler house.
                                       Although the contractor first identified this problem and reported it to GSA in
                                       March 1998, funds were apparently not available to correct the problem at
                                       that time.


10 Semiannual Report to the Congress
         Major




Our reports, dated April 21, 1999, April 30, 1999, June 10, 1999, July 2,
1999, and August 20,1999, contained no formal recommendations.
However, as a result of our alert reports to management, corrective actions
have been or are being taken in four of the five buildings to eliminate the
reported problems. We advised the Regional Administrator in each of these
reports that the identified conditions will be included in the final report to be
issued at a later date addressing our overall evaluation of the Property
Management Center management and administration practices.

Scheduling Fire Safety Surveys
Part of GSA's mission is to provide a safe and healthful working environment
for Federal employees. This includes periodically assessing fire safety
conditions in both owned and leased buildings under the Fire Safety Program.

The OIG reviewed the Fire Safety Program in one region to see if it was
effectively meeting the Agency's mission. The program carries the
responsibility for assessing risk, correcting deficiencies, performing
preventive maintenance checks of fire safety systems, and providing guidance
to GSA and client agencies related to fire safety issues. It also must ensure
that design and construction projects are adequately reviewed for compliance
with national fire protection codes and standards.

We found that the regional program's mission and goals were generally being
met. However, improvement was needed in the process for scheduling fire
assessment surveys. Fire safety surveys are performed on a 5-year cycle, and
once completed, assessment data is entered into a computer tracking system
that automatically generates a new survey schedule for 5 years hence.
However, when scheduled surveys were not perfonned for a variety of
reasons, the program did not have an effective process to monitor missed
surveys and assure that buildings were rescheduled as necessary for the
safety assessments. Of the 37 buildings identified as being off-schedule, we
noted that three had not been surveyed sincc 1988.

During the review, when this condition was brought to management's
attention, corrective action was initiated to improve the scheduling of the
surveys.

Tn our September 10, 1999 report, we recommended to the Regional
Administrator that the Safety, Environment and Fire Protection Branch
closely monitor the implementation of the new procedures for scheduling
assessment surveys to ensure they are performed on a cyclical basis.
Regional management agreed with the recommendation in the report. The
audit is still in the resolution process.




                                                   Office of Inspector General 11
                                               Major




                                       Evaluating the Industrial Funding
                                       The GSA Multiple Award Schedule (MAS) Program provides Federal
                                       agencies with a simplified process for acquiring commonly used products and
                                       services at volume pricing. In FY 1995, the MAS Program became
                                       industrially funded. The Agency adds a fee to product prices to collect the
                                       funds necessary to operate the program. As part of the purchase price,
                                       customer agencies pay the fee to contractors who subsequently remit the fee
                                       to GSA.

                                       In a previous review of the fee collection process, the OIG identified that
                                       controls needed to be strengthened to accurately identify and collect the fee,
                                       as wcll as enhance program management. GSA also reported in its 1997
                                       Annual Report that improvements were still needed in the reconciliation of
                                       sales data and fee payments. This period, we performed a review to assess
                                       the progress made.

                                       We concluded that the 1 percent fee currently added to item prices no longer
                                       approximates a break-even point and is set higher than necessary to recover
                                       program costs. Controls are also needed to ensure that contractors properly
                                       remit fees. Although adjusting the fee is a complex and costly process, the
                                       Agency must determine under what conditions it will revise the fee.

                                       The generally accepted concept of the industrial funding fee is to recoup only
                                       program costs. Initially, the fee was set at 1 percent with the expectation that
                                       it would be reduced as MAS sales increased. In each of the past 2 fiscal
                                       years, the fee generated about $30 million in revenue above costs, and is
                                       expected to do the same in FY 1999. This has occurred, in part, because
                                       actual program sales were higher than projected primarily due to the addition
                                       of the Information Technology Acquisition Center to the MAS Program.

                                       We viewed the impact of this higher fee as twofold: the program takes in
                                       more than intended with customers paying higher prices than necessary, and
                                       it masks the losses on parts of GSA's operations for other supply programs.
                                       The Agency combines the results from each of its six supply programs (of
                                       which the MAS Program is one) and deposits the fees in the General Supply
                                       Fund. Although GSA is required to return excess funds to the Department of
                                       the Treasury, it determines the excess on the basis of the net results of the
                                       General Supply Fund and not on individual business segments.

                                       Our report also concluded that GSA needs strong controls to ensure that
                                       contractors accurately report their sales and promptly remit the fees due the
                                       Agency. MAS Program contractors collect the fee as part of the price paid
                                       by customer agencies purchasing the product. Each contractor is then
                                       required to remit the fee to GSA. Collection of the fee from the contractors
                                       is critical since the fee provides the funds to operate the program. In

12 Semiannual Report to the Congress
         Major




FY 1998, contractors reported MAS sales of $7.6 billion, with $80.9 million
in revenue generated for GSA. As of November 1998, contractors owed
about $2 million in outstanding fees.

In our May 28, 1999 report, we recommended that the Commissioncr,
Federal Supply Service:

• Adjust the fee to bring revenue in line with costs.

• Establish criteria for determining when future fee adjustments are needed.

• Revise controls to include a risk-based approach to verifying contractor
  reported sales data.

• Strengthen controls over the fee collection process.

• Develop management reports to improve oversight of the process.

Management concurred with the intent of the recommendations for adjusting
the fee and concurred that controls need to be strengthened with regard to
verifying and collecting the fee. We agreed with management that due to the
Agency closure of the distribution centers subsequent to the issuance of our
report, changing the fee would be difficult at this time, since the fee is based
on operational costs affected by the closure. Agency management has agreed
to routinely monitor program costs, growth of schedule sales, and market-
place conditions to determine criteria for establishing when to adjust fees,
and if needed, to adjust the fee when conditions stabilize.

A responsive management action plan was provided for implementing the
report recommendations.




                                                  Office of Inspector General 13
                                       GSA is a central management agency that sets Federal policy in such areas
                                       as Federal procurement, real property management, and telecommunications.
                                       GSA also manages diversified Government operations involving buildings
                                       management, supply facilities, real and personal property disposal and sales,
                                       data processing, and motor vehicle and travel management. Our audits
                                       examine the efficiency, effectiveness, and integrity of GSA programs and
                                       operations, and result in reports to management. Our internal audits
                                       program is designed to facilitate management s evaluation and improvement
                                       of control systems by identifYing areas of vulnerability and providing
                                       injhrmational and advisory services.

Significant OIG                        Regional Antenna Program Concerns
Accomplishments                        GSA's Antenna Program could expand significantly as a result of recent
                                       Federal initiatives to support the needs of the rapidly growing cellular and
                                       personal communications services industry. Industry observers estimate a
                                       need for 100,000 new commercial antenna sites by the year 2000.

                                       A 1995 executive memorandum directed Governmentwide cooperation with
                                       the siting of commercial antennas on rooftops of Federal buildings, and
                                       named GSA as the coordinating agency. As of January 1999, one Agency
                                       region had 44 antenna sites leased out on its Federally-owned and leased
                                       buildings. These 44 outleases will generate about $850,000 in annual rental
                                       income. The number of antenna outleases and the related income is expected
                                       to grow significantly in the next year. Following a regional reorganization,
                                       management requested OIG assistance in attaining a baseline assessment of
                                       the Antenna Program.

                                       We concluded that, while the region had established a framework for
                                       conducting the program, management controls and administrative practices
                                       for several areas were either weak or lacking. If these weaknesses are not
                                       corrected, they could magnify and become problematic, especially if the
                                       program expands as currently projected. The lack of adequate controls and
                                       guidance highlighted problems or concerns, such as:

                                       • Cost of utilities was not reimbursed by the clients. Lease agreements
                                         require the lessee to pay for services and utilities to operate its antenna site
                                         equipment. The lessees, however, have not yet installed separate meters at
                                         many sites. Utility costs at two sites are estimated at about $5,000 to
                                         $6,000. These costs were borne by the Government at these and many
                                         other locations. No one in GSA has been assigned responsibility for
                                         assessment and collection of utility costs.

                                       • Insufficient evidence of liability protection was found. Many lease files
                                         lacked documentation to show that lessees have the required liability


14 Semiannual Report to the Congress
                 of GSA




  insurance so that the Government is indemnifIed against potential claims.
  There are no procedures to ensure lessee compliance.

• Price derivation and reasonableness was inadequately addressed.
  Each antenna site is unique and there is no standard price schedule to refer
  to in negotiating lease rates. Thus, it is particularly important that
  contracting personnel adequately document their negotiation stratcgies to
  show that the negotiated prices are reasonable.

• Risk of security breaches has increased. Lessee employees are allowed
  unrestricted access to Federal rooftops but they arc not screened for
  security purposes.

• Outleasing function is inappropriately staffed, The primary function of
  the outleasing staff is to negotiate and administer outleases. Two of the
  three individuals on the outleasing staff are private sector contract
  employees. Management needs to ensure that inherently Governmental
  functions, i.e., outlease negotiations, are staffed and performed only by
  Agency employees.

In our April 20, 1999 report to the Regional Administrator, we recommended
that specific management controls and program guidance for the Antenna
Program be developed and formally implemented.

A responsive management action plan was provided for implementing the
report recommendation.

Regional Reorganization Efforts
In its continuing effort to provide quality service and a singular, seamless
Agency contact to its customers, the Public Buildings Service in one region
reorganized its structure. The new organization involves established service
delivery teams to serve specific customers regardless of their geographical
location within the region. Customers are assigned to one delivery team that
will handle all their needs. Previously, GSA services were provided by a
hierarchical department stlUcture, with functional groups operating within
designated geographical boundaries, requiring client customers to dcal with
multiple Agency contacts to meet their various requirements.

At the request of the Assistant Regional Administrator, the OIG reviewed the
new organizational structure. Our review was done to determine if the new
structure provides sufficient continuity to ensure that the needs of client
agencies, and also of regional officials, are met.




                                                 Office of Inspector General 15
                                       In our August 23, 1999 report, we concluded that the region made meaning-
                                       ful progress toward fully implementing the reorganization. The region has
                                       the communication processes, financial information, and broad management
                                       controls necessary to accomplish a successful change. However, we pointed
                                       out that management should continually test, evaluate, and make changes as
                                       needed in order to achieve optimum results as the new organization adapts
                                       itself to changing goals.

                                       Since the new organization is in transitional development, we did not include
                                       formal recommendations in our report.

                                       Refining Lease Administration
                                       Being the largest civilian landlord in the country and striving to be the
                                       preferred provider of space to all Federal agencies, GSA must continue to
                                       improve its lease acquisition process to better serve its customers.

                                       This period, OIG reviews at two regional offices showed that improvements
                                       were needed in lease administration. In one region, the lease termination
                                       clauses being negotiated by realty specialists are sometimes ambiguous and
                                       subject to misinterpretation. In one case, poorly worded clauses resulted in
                                       the Government paying about $67,000 annually for residual fragments of
                                       leased office space. Such space should have been returned as part of larger
                                       and contiguous amounts of unneeded space.

                                       Also, occupancy agreements between GSA and the client agency are not
                                       being consistently used for all space assignments. In some instances,
                                       preliminary agreements are not prepared because the required financial
                                       summary is time-consuming to complete and the data changes frequently as
                                       the project progresses. When agreements are not prepared until the assigned
                                       space is complete and final costs are in, oftentimes tenant agencies will
                                       question the dollar amounts and refuse to sign the agreements.

                                       In another region, customers expressed dissatisfaction with the Agency in
                                       resolving problems with lessor performance. GSA needs to follow up with
                                       customers and lessors to assure that corrective actions are accomplished. In
                                       some cases, safety issues were not promptly corrected and other lessor
                                       performance issues went unresolved for more than 2 years. In addition, GSA
                                       needs to ensure that monetary deductions are taken when lessors fail to
                                       provide contract-required items or to correct deficiencies.

                                       Our two reports, dated May 11 and August 20, 1999, directed
                                       recommendations to the Assistant Regional Administrator, Public Buildings
                                       Service, and Regional Administrator, to ensure that:




16 Semiannual Report to the Congress
• The contracting officer, in consultation with appropriate individuals,
  su bstantiates that the language in the termination clause is clear and
  concise, and establishes an acceptable level of financial risk for the
  Government.

• The contracting officer should issue a lease amendment to clarify the
  intent of termination clauses, if necessary.

• Lease administration personnel arc actively involved until initial lease
  deficiencies are resolved, and are available to communicate with customer
  agencies to resolve disputes as needed to enhance customer satisfaction.

• Lease administration personnel use more aggressive lease enforcement
  actions, such as taking deductions, when lessors do not meet contract
  requirements.

No formal recommendation was made concerning the occupancy agreements
because, as a result of our review, the Agency issued an internal memoran-
dum to explain these documents and specify when they are mandatory. The
memorandum also emphasized the necessity that these agreements be signed
by the tenant agency.

Management agreed with the recommendations in the reports. The audits are
still in the resolution process.

Controls over RWA Expenditures
In FY 1997, GSA introduced a series of initiatives aimed at improving the
process by which it delivers space alteration services to customer agencies.
The initiatives focused on alteration practices, examining possible methods
on how to accomplish alterations, and reduce administrative burdens while
improving efficiency. The agreement between GSA and the customer agency
for above standard altcrations is known as a Reimbursable Work
Authorization (RWA).

While prior audits found that the RWA delivery process had improved, this
period our review disclosed that existing management control activities to
prevent and detect inaccurate RWA information in the financial records are
not being performed consistently. These inaccuracies undermine GSA's
ability to recover its costs and increase the risk of customer dissatisfaction.

We found that control activities to record transactions, document files,
reconcile performance data, and manage RWAs were not being performed
consistently to ensure the accuracy of financial information. GSA is in the
process of implementing a new financial system that will place data entry for



                                                   Office of Inspector General 17
                                                            GSA Programs




                                       RWAs at the field office level. As various accounting and information
                                       reports are eliminated, new enhanced features can be used to better manage
                                       RWAs.

                                       In our September 28, 1999 report, we recommended that the Commissioner,
                                       Public Buildings Service:

                                       • Review and correct RWA financial data before or as it shifts from the old
                                         to the new financial system.

                                       Strengthen the management control system by:

                                       • Adjusting controls to meet the changed RWA process and the new
                                         financial system.

                                       • Updating and documenting policies on accountability and responsibility
                                         for the financial management of RWAs.

                                       • Providing initial and continuing training to personnel on the use of the new
                                         financial process and the implementation of management controls.

                                       The Commissioner agreed with the recommendations in the report. The audit
                                       is still in the resolution process.




18 Semiannual Report to the Congress
with the Government Performance and




         One of the most significant pieces of legislation passed to improve the
         effectiveness of Government programs is the Government Performance and
        Results Act of 1993 (GPRA). Thefocus of the Act is to hold public managers
        more accountable for achieving desired program outcomes. The Congress
        also envisions that the Offices of Inspector General will playa key role in
        fostering sound implementation ofGPRA.

        GPRA requires each Federal agency to develop annual performance plans
        consistent with the agency's Strategic Plan. The performance plans establish
        measurable goals and indicators to provide a basis for comparing actual
        program results with the established performance goals for each program
        activity set forth in the budget of the agency.

        During recent years, the OIG has been performing selective reviews of GSA's
        performance measures as reported by the Office of the Chief Financial
        Officer in the Agency Annual Report. This period, we completed a review of
        two performance measures, Consolidation Savings and Market Penetration,
        relating to Interagency Fleet Management System (IFMS) operations.

        Our limited audit was designed to determine if systems, policies, and
        procedures are in place, and are adequate and effective, to ensure the
        existence, completeness, and accuracy of the data supporting these measures.

        We reported that GSA relies on data provided by sources outside of its
        control to support the two measures, and does not verifY or validate that
        information. Therefore, there is a moderate risk that the policies and
        procedures used by IFMS do not provide reasonable assurance that the data
        supporting the Consolidation Savings and Market Penetration performance
        measures exist, are complete, and are accurate. We will continue to review
        and report on the Agency's GPRA measures in a sequence so as to help
        ensure full implementation as required under the Act.

        The April 15, 1999 report contained no formal recommendations.




                                                        Office of Inspector General 19
                                       GSA is responsible for providing working space for almost I million Federal
                                       employees. GSA, therefore, acquires buildings and sites, constructs facilities,
                                       and leases space, and also contracts for repairs, alterations, maintenance,
                                       and protection of Government-controlled space. GSA also operates a
                                       Governmentwide service and supply system. To meet the needs of customer
                                       agencies, GSA contracts for billions of dollars worth of equipment, supplies,
                                       materials, and services each year. We review these procurements both on a
                                       preaward and postaward basis to ensure that the taxpayers' interests are
                                       protected.

Significant DIG                        Five GSA Building Supervisors Plead Guilty to
Accomplishments                        Taking Bribes
                                       On June 29 and 30, 1999, five former GSA building supervisors pled guilty
                                       in U.S. District Court to taking bribes from GSA contractors. Sentencing is
                                       pending for all five subjects. The five employees were among a total of six
                                       Government employees and ten private contractors arrested on October 6
                                       and 7, 1998. The arrests were the culmination of a 2-year investigation by
                                       the 01G regarding bribery and kickback schemes in connection with GSA
                                       maintenance and construction projects at various Federal buildings and
                                       offices. The arrests constituted one of the largest GSA corruption
                                       prosecutions in GSA's recent history. The charges against the other eleven
                                       individuals are pending. The OlG investigation was initiated after a GSA
                                       manager reported suspicious conduct on the part of a GSA employee.

                                       Over $1.4 Million in Civil Recoveries
                                       During this period, the Government entered into 9 settlement agreements in
                                       which companies agreed to pay a total of over $1.4 million to resolve their
                                       potential civil liabilities under the False Claims Act. These agreements,
                                       negotiated by representatives of the Department of Justice and the GSA OlG,
                                       reflect the ongoing efforts of the OIG to pursue cases involving procurement
                                       fraud and other practices that threaten the integrity of the Government's
                                       procurement process.

                                       Many of these cases involved procurements under GSA's Multiple Award
                                       Schedule (MAS) Program. Under this program, GSA negotiates contracts
                                       with a number of vendors who may then sell contract authorized products to
                                       Federal agencies at established contract prices. Consistent with the
                                       provisions of the Truth in Negotiations Act and the Competition in
                                       Contracting Act, the process is based on the principles of full and open
                                       disclosure and fair negotiations. Vendors must provide current, accurate, and
                                       complete pricing information-including information about discounts granted
                                       their most favored commercial customers-during contract negotiations.
                                       Relying on this information, GSA contracting personnel then seek to obtain
                                       the best possible prices for the Government. In cases where vendors fail to


20 Semiannual Report to the Congress
provide current, accurate, or complete information, the Government may pay
artificially inflated prices for products and services purchased. Highlights of
these cases follow.

• Datacard Corporation (Datacard) agreed to pay $600,000 to settle its
  potential civil Falsc Claims Act liability. The Government alleged that
  Datacard misled GSA contracting officials in the course of negotiating its
  MAS contract to provide office machines. The company represented that
  the range of discounts it was offering to its other customers were off of its
  list price whcn, in fact, the discounts were off of its net prices. This
  misrepresentation led GSA to agree to higher prices than it would have,
  had it known the actual baseline for the company's discounts.

• Lucent Technologies, successor-in-interest to AT&T Corporation's
  equipment operations, paid the Government $360,000 to settle
  overcharging allegations in connection with the leasing by the Government
  of key common phone equipment from 1984 to the present time. A
  significant portion of these overcharges were attributable to GSA, both for
  its own leasing of this equipment and for telephone services GSA procured
  for other tenant Federal agencies during the relevant time period. The
  settlement arose out of a class action suit in which the Government was a
  member of a class, along with regular commercial customers.

• Buckner and Moore, Inc. was the contractor on a 1993~ 1996 construction
  contract with GSA to remodel the U.S. Courthouse Building in Oklahoma
  City. GSA also entered into a design contract with Glover Smith Bode,
  Inc., to provide architectural and engineering services in connection with
  the remodeling contract. After the contracts were completed in 1996, a
  dispute arose involving the requirements of the specifications and the
  quantity of materials incorporated into the fire alarm system for the
  building. The dispute was referred to the U.S. Attorney for the Western
  District of Oklahoma, based on alleged falsification of certifications
  involving the design and installation of the fire alarm system. The matter
  was settled on August 4,1999, for payment in the amount of $250,000 by
  Buckner and Moore, Glover Smith Bode, and several of their subcontrac-
  tors, as well as for correction and modification of the faulty alarm system
  to comply with all contract specifications.

• The successors-in-interest to N eotronics of North America, Inc.
  (Neotronics) agreed to pay $210,000 to settle Neotronics' potential False
  Claims Act liability for engaging in defective pricing in the negotiation of
  its MAS contract to provide portable and laboratory emissions testing
  equipment. The Government alleged that officials ofNeotronics
  deliberately misled GSA contracting officials by misrepresenting the
  discounts it offered to its distributors and dealers.


                                                  Office of Inspector General 21
                                       Procurement Activities




                                       • Western Tile and Marble was a subcontractor on the construction of the
                                         Mark O. Hatfield U.S. Courthouse in Portland, Oregon. During the proj-
                                         ect, an investigation determined that Western Tile had conspired to
                                         intentionally substitute limestone used for the stone clading on the interior
                                         and exterior of the courthouse. On April 19, 1999, Western Tile agreed to
                                         pay $21,000 to settle its potential civil False Claims Act liability. As part
                                         of the resolution, Western Tile and Hoffman Construction, the prime
                                         contractor, agreed to reduce their claims for equitable adjustment by
                                         $3.48 million.

                                       • A retired GSA employee agreed to pay $l3,000 to settle his civil False
                                         Claims Act liability for submitting fraudulent travel vouchers to GSA and
                                         the Office of Workers' Compensation, u.S. Department of Labor.

                                       Courthouse Construction and Contracting
                                       Practices
                                       GSA is in the midst of an aggressive major construction program to build
                                       160 new courthouses projected to cost over $8 billion. Over 100 of the
                                       scheduled courthouses have yet to be approved or funded. In FY 1999,
                                       Congress funded 14 courthouses for $462 million. For FY 2000, GSA has
                                       proposed 16 additional courthouses projected to cost $535 million.

                                       As a follow-up to a previous audit on bidding and contracting practices on
                                       GSA's major construction projects, the OIG performed a review of the
                                       Agency's courthouse construction and contracting practices. We found that
                                       the Agency has been effective in controlling costs for unwarranted upgrades
                                       in new courthouse design and construction projects. Also, GSA developed a
                                       cost benchmark computation model and worked with the courts, design
                                       architects, and project officials to promote design decisions that are in line
                                       with the revised u.s. Courts Design Guide, and congressionally approved
                                       funding limits.

                                       We noted, however, that the Agency needs to employ a nationwide system to
                                       collect and recover contractor past performance evaluation information when
                                       making source selection procurement decisions. Since 1995, GSA has tried,
                                       without success, to have regional performance evaluations compiled into a
                                       computer database maintained by Central Office. Although the system was
                                       revised in March 1999 to allow online input and retrieval of evaluation data,
                                       most contracting officials do not yet have access to the revised system, are
                                       not inputting data, or are not using the system in source selection decisions.

                                       In addition, GSA is encouraging the use of private sector practices to
                                       improve the construction program. One such practice is the Construction
                                       Manager as Constructor (CMC), which is a procurement process that awards


22 Semiannual Report to the Congress
                      A



a contract for pre-constmction and constmction services during the design
phase of a project. Thc CMC works with the architect/engineering firm
(A/E) and the CMC's subcontractors to match the building scope to the
budget, and provides constructibility reviews of the architect's drawings,
construction cost estimates, and assistance to the A/E in defining building
systems and finishes.

We concluded, however, that independent oversight of the CMC's work is
needed because of potential conflicts of interest during constmction whcn
GSA relies on the CMC to inspect the work of its own subcontractors, and to
evaluate their change order pricing. Independent oversight would also
improve Agency controls over constmction contractor work to ensure quality
materials and proper constmction procedures.

In our September 29, 1999 report, we recommcndcd that the Commissioner,
Public Buildings Service:

• Ensure contractors' past performance evaluation data collection and
  retrieval system is applied throughout PBS and used by its contracting
  officials in making source selection procurement decisions.

• Strengthen the procurement process by requiring the independent
  monitoring of the construction contractor's work on PBS's major
  constmction program.

The Commissioner concurred with the recommendations in the report. The
audit is still in the resolution process.

Performance-Based Bui/dings Services Contracts
GSA spends about $200 million annually on its Buildings Operations and
Maintenance Program. Most of the Agency buildings services contracts are
for cleaning, elevator maintenance, and mechanical services. Operations and
maintenance services are being provided by the private sector under
performance-based contracts. GSA relies on contractors to provide quality
services without the level of oversight and inspection that GSA personnel
performed in the past.

A review of the nationwide program for mechanical services showed that
controls needed to be strengthened to ensure that contractors met contractual
requirements. Our physical inspection of buildings, for which the contractors
were responsible, identified maintenance deficiencies and inaccurate
equipment inventory. (Inadequate maintenance, tests, and inspections can
result in the safety of Federal employees and others being jeopardized. See
page 10.) Controls in many offices were rendered ineffective by program



                                                 Office of Inspector General 23
                                       demands, staffing inadequacies, and a lack of support and direction for their
                                       implementation. As a result, the contracts are at risk of fraud, waste, and
                                       abuse.

                                       The review also disclosed that GSA is paying for repairs to equipment for
                                       which prior contractors were responsible because the deficiency inspections
                                       performed at the end of a contract and the start of a new contract are not
                                       reconciled. In three newly constructed (or renovated) buildings, we found
                                       shoddy construction and malfunctioning equipment, covered by manufacturer
                                       warranties, that had been accepted and ultimately repaired and paid for by the
                                       Agency. This was caused by a lack of coordination between officials
                                       responsible for construction, acceptance, and operation.

                                       Finally, we noted that inaccurate equipment invenlory in both old and new
                                       buildings has resulted in GSA paying for maintenance of non-existing
                                       equipment, and equipment not being maintained because it was not on the
                                       inventory. In one new building, GSA had to negotiate increases to the
                                       operations and maintenance contract because one-third of the equipment
                                       installed in the building was not included in the original inventory. This
                                       occurred because confusion existed over who is responsible for the accuracy
                                       of the equipment inventory.

                                       In our September 7, 1999 report to the Commissioner, Public Buildings
                                       Service, we recommended that the Agency institute a national quality
                                       assurance program that establishes a consistent approach for monitoring
                                       contractor performance, with a focal point for guidance and direction
                                       regarding interpretation and application of operations and maintenance
                                       contract terms and conditions.

                                       The Commissioner agreed with the recommendation in the report. The audit
                                       is still in the resolution process.

                                       Controls Over Small Purchases
                                       Most GSA offices and staff are authorized to procure supplies and services
                                       needed to carry out their official responsibilities. Agency-issued purchase
                                       cards are the preferred means of purchase and are considered timely and cost
                                       effective. Although procedures are simplified, procurement officials are still
                                       required to comply with basic management controls mandated by GSA policy
                                       and guidelines.

                                       Purchase authority, when delegated to employees who are neither
                                       experienced nor trained in procurement regulations, results in increased
                                       chances for improper procurements. Because we have seen problems arising




24 Semiannual Report to the Congress
from a lack of management controls being exercised, particularly in the
procurement arena, we performed a review of the controls for a regional
procurement program.

Regional management cannot be assured that all purchases made by their
procurement personnel represent official needs because basic controls were
ignored by some activities. Some purchase card users did not keep records of
what was ordered or received. Credit card billings were not and could not be
verified for accuracy. These problems went undetected because officials
responsible for periodic review of credit card purchases had not performed
the reviews. We also noted that one cardholder exceeded the monthly and
single purchase limits due to payments for recurring cell phone charges.

Our review concluded that controls needed to be strengthened over small
purchase bankcard transactions. Approving officials need to monitor and
verify card usage. Cardholders must retain supporting documentation and
perform monthly reconciliations of the card statements. Otherwise, there is
little to safeguard against potential misuse or waste, and no assurance that all
procurements are for valid program needs.

In our August 30, 1999 report to the Regional Administrator, we
recommended that:

• Approving officials monitor and verify all purchase card activities.

• Individual cardholders document purchases, perform monthly
  reconciliations, and adhere to single and monthly spending limits.

The Regional Administrator agreed with the recommendations in the report.
The audit is still in the resolution process.

Federal Excess and Surplus Property
Federal regulations mandate that the Government uses all personal property
to the fullest extent possible. To this end, GSA is tasked with coordinating
the use of property within thc Government. When this property is deemed
excess or surplus to the needs of Government, GSA coordinates the transfer
of this property to State and local governments or charitable organizations.

Illegal Transfer of Barge Crane
An investigation was initiated after a complaint from an anonymous source
alleged that the Jamestown S'Klallam Tribe provided a Tacoma, Washington
construction company with a barge crane, which was Federal excess property,
in violation of Federal requirements. The investigation disclosed that GSA
had transferred the barge crane to the Bureau of Indian Affairs of the



                                                  Office of Inspector General 25
                                       Department of Interior for use by the Jamestown Tribe. The investigation
                                       further found that the Jamestown Tribe had not used the barge crane, rather, it
                                       had given the barge crane to the construction company under a lease/purchase
                                       arrangement. On June 28, 1999, the Jamestown Tribe agreed to pay $15,000
                                       to resolve the Government's allegations that the crane had been obtained and
                                       then transferred with false representations. The construction company had
                                       previously agreed to pay GSA $321,000 in exchange for clear title to the
                                       crane.

                                       As a direct result of this investigation, the Bureau of Indian Affairs modified
                                       its requirements for approving excess property transfers to tribal organiza-
                                       tions and the subsequent reporting and accountability of this property.

                                       Former Captain of Civil Air Patrol Pleads Guilty to Fraud against the
                                       Government
                                       On September 2, 1999, a former captain with the Rhode Island Civil Air
                                       Patrol pled guilty in U.S. District Court to fraud against the Government. He
                                       had been charged with intentionally converting for his own use property that
                                       he obtained from the Defense Personal Property Utilization Disposal Program
                                       which was intended for use by the Civil Air Patrol. Sentencing is scheduled
                                       for December 3, 1999.

                                       A joint Defense Criminal Investigative Service and GSA investigation was
                                       initiated when it was alleged that the former captain was acquiring military
                                       surplus property for his own use under the guise of ostensible transfers to the
                                       Civil Air Patrol. The investigation revealed that he converted military
                                       surplus property over a 30-month period for his own benefit by pocketing
                                       over $38,000 on sales to an Army/Navy surplus store and a computer outlet.
                                       The investigation also disclosed that the former captain obtained military
                                       surplus property totaling $630,000 without authorization, and this property
                                       could not be accounted for within the Civil Air Patrol.




26 Semiannual Report to the Congress
                       In addition to detecting problems in GSA operations, the GIG is responsible
                       for initiating actions to prevent fraud, waste, and abuse and to promote
                       economy and efficiency.

Significant Preaward   The OlG's pre award audit program provides information to contracting
and Other Audits       officers for use in negotiating contracts. The pre-decisional, advisory nature
                       of preaward audits distinguishes them from other audits. This program
                       provides vital and current information to contracting officers, enabling them
                       to significantly improve the Government's negotiating position and to realize
                       millions of dollars in savings on negotiated contracts. This period, the OIG
                       performed pre award audits of 38 contracts with an estimated value of
                       $406 million. The audit reports contained over $20 million in financial
                       recommendations.

                       This period, thrcc of the more significant Multiple Award Schedule contracts
                       we audited had projected Governmentwide sales totaling nearly $145.9 mil-
                       lion. The audit findings recommended that $9.8 million in funds be put to
                       better use. The audits disclosed that these vendors offered prices to GSA that
                       were not as favorable as the prices other customers receive from these
                       vendors.

                       We also audited several claims for increased costs allegedly caused by the
                       Government during the construction and renovation of Federal buildings.
                       Three of the more significant audits contained proposed prices totaling
                       $4.1 million, and recommended adjustments of $2.6 million because
                       contractors overstated costs, sought unallowable costs, or sought payment for
                       goods not actually purchased.

Integrity Awareness    The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                       employees on their responsibilities for the prevention of fraud and abuse, and
                       to reinforce employees' roles in helping to ensure the integrity of Agency
                       operations.

                       This period we presented 4 briefings attended by 94 regional employees.
                       These briefings explain the statutory mission of thc OIG and the methods
                       available for reporting suspected instances of wrongdoing. In addition,
                       through case studies and slides, the briefings make GSA employees aware of
                       actual instances of fraud in GSA and other Federal agencies and thus help to
                       prevent their recurrence. The briefings have in fact led to OIG investigations
                       based on reports by GSA employees of suspected wrongdoing.

Hotline                The OIG Hotline provides an avenue for concerned employees and other
                       concerned citizens to report suspected wrongdoing. Hotline posters located
                       in GSA-controlled buildings, as well as brochures, encourage employees to
                       use the Hotline. During this reporting period, we received 1,012 Hotline


                                                                        Office of Inspector General 27
                                       calls and letters. Of these, 81 complaints warranted further GSA action,
                                       13 warranted other Agency action, and 918 did not warrant action.

Implementation Reviews                 Responsibility for implementing appropriate corrective action as the result of
                                       audit report recommendations rcsts with Agency management. The OIG
                                       performs, on a selective basis, indepcndent reviews of the implementation
                                       actions to ensure that management is carrying out this responsibility
                                       according to established milestones. This period, the OIG performed four
                                       implementation reviews. In two of these reviews, all of the recommendations
                                       had been implemented. In the other two reviews, some of the recommenda-
                                       tions had not been fully implemented.

                                       The annual audit of the GSA consolidated financial statements was
                                       perforn1ed by an independent public accounting (IPA) finn with oversight
Audit                                  and guidance from the OIG, as required by the Chief Financial Officers Act
                                       of 1990. Unqualified opinions on the Agency's financial statements and on
                                       its system of internal accounting controls were issued during our previous
                                       reporting period.

                                       This period, the IPA issued its FY 1998 Management Letter Report in which
                                       it identified four reportable conditions:

                                       • GSA needs to strengthen logical and physical access controls over its
                                         information technology environment.

                                       • Security policies and procedures need to be uniformly applied across
                                         GSA's service lines.

                                       • Improvements arc needed in the controls over the integrity of rent and
                                         leasing data used in management of the Federal Buildings Fund.

                                       • GSA does not have a process for ensuring the achievement of the
                                         Government Performance and Results Act goal to verify and validate the
                                         measured Government values of actual performance.

                                       We also reviewed the Information Technology Solutions Program financial
                                       internal controls in support of the IPA's FY 1999 financial statement audit.
                                       We noted a number of areas where financial controls could be improved and
                                       suggested a means for improving operational cost recoveries.

                                       We made no formal recommendations in our September 29, 1999 report
                                       because the internal control weaknesses we identified will be reported by the
                                       IPA in its FY 1999 Management Letter Report to the Chief Financial Officer.




28 Semiannual Report to the Congress
The Inspector General Act of 1978 requires the OIG to review existing and
proposed legislation and regulations to determine their effect on the economy
and efficiency of the Agency s programs and operations and on the
prevention and detection offraud and mismanagement.

During this period, the OlG reviewed 237 legislative matters and
25 proposed regulations and directives. The OlG provided significant
comments on the following legislative items:

• Draft Federal Real Property Asset Management Reform Act of 1999. We
  provided comments on a draft bill that would empower Federal
  landholding agencics to engage in certain transactions, including sales,
  exchanges, outleases, and public/private partnerships regarding any under-
  performing real property holdings. The bill would further authorize
  agencies to retain any proceeds from such transactions for future real
  property-related expenditures. Although we support the draft bill's intent
  to give agencies more flexibility and control over their real property assets
  in order to ensure those assets are used more efficiently, we noted our
  concerns that sufficient controls be maintained over new transactional
  authorities-such as sales or outleases-so that the Government receives a
  fair return. In this connection, we suggested that any implementing
  regulations provide guidance on obtaining fair market value, and that
  pretransaction reviews or audits and Office of Management and Budget
  (OMB) approval may be advisable for larger transactions. Finally, we
  noted that to the extent transactions would take the form of exchanges
  where no proceeds would be generated, the draft bill might have an impact
  on the McKinney Act, which requires some percentage of proceeds to go
  to homeless assistance groups.

• Cost Accounting Standards Board Amendment, DoD Authorization Bill
  FY 2000. We provided comments on a draft amendment which would
  move the Cost Accounting Standards (CAS) Board from the Office of
  Federal Procurement Policy (OFPP) to the Department of Defense (DoD),
  eliminate GSA's board seat and provide the National Aeronautics and
  Space Administration with a seat. We noted our concerns that moving the
  CAS Board to DoD would not necessarily increase its independence. We
  advocated either making the Board a stand-alone agency or retaining it in
  its current location within OFPP.

• H.R. 1827, Government Waste Corrections Act of 1999. We provided
  comments on H.R. 1827, which would mandate recovery audits for agency
  payment activities over a certain dollar threshold. We understand that
  recovery audits are an established commercial business practice involving




                                                 Office of Inspector General 29
                            Review of Legislation and




                                         the identification of overpayments made to suppliers of goods and
                                         services. Such overpayments may involve, among other things, duplicate
                                         payments, pricing errors, missed cash discounts, rebates, or other
                                         allowances. We noted our support for the notion of recovery audits, but
                                         noted that OIGs should be incorporated into the bill in order to enhance its
                                         effectiveness. Specifically, we noted that incorporating OIGs would
                                         improve coordination and eliminate duplication of audit efforts within
                                         individual agencies, and would enhance actual recoveries. We also
                                         pointed out that the bill should conform to established legal remedies
                                         relating to overpayments in the Government contracts context, and
                                         recommended that certain clarifications be made with respect to recovery
                                         audits of payment activities that involve more than one agency.

                                       • Amendment Regarding DIG Crimina/Investigations, S. 886, Department
                                         of State Authorization Bill. We provided comments to the President's
                                         Council on Integrity and Efficiency (PCIE) on a proposed amendment
                                         regarding OIG investigations which would require exculpatory information
                                         to be included in OIG reports and which would give any individual named
                                         in an OIG report an opportunity to review assertions related to their
                                         actions. We pointed out that a statutory requirement to include
                                         exculpatory information in OIG investigative reports would be
                                         unnecessary, as established law enforcement investigative standards and
                                         Federal caselaw currently contain such a requirement. As for the
                                         requirement that any individual named in an OIG report be afforded an
                                         opportunity to review any report containing assertions involving them, we
                                         noted our concerns that such a requirement was overly broad and would be
                                         burdensome to implement in practice, as many third parties are often
                                         referenced in OIG reports.

                                       • Draft Paperwork Reduction Act Amendment. We provided comments to
                                         the Inspections Committee of the PCIE regarding a draft proposal to
                                         amend the Paperwork Reduction Act to exempt OIG information
                                         collections from the Act's requirements. We noted that although we
                                         believed the Act's requirement for agency head approval of OIG
                                         information collections was objectionable on the grounds that it might
                                         compromise OIG independence, existing implementing regulations might
                                         allow OIGs to bypass agency head approval and present information
                                         collections directly to OMB for review. We felt that legislation to remedy
                                         this issue may not be necessary.

                                       • Federal Reports Elimination and Sunset Act of 1995. We provided
                                         comments to OMB on a list of reports required to be eliminated by the
                                         Federal Reports Elimination and Sunset Act. The Act required all routine
                                         or periodic reports to Congress from the President or Executive branch that



30 Semiannual Report to the Congress
  are contained in a certain House of Representatives-generated report to be
  eliminated. We noted that this list incorrectly included a reporting
  requirement contained in the Inspector General Act regarding removal of
  an Inspector General by the President. This provision requires the
  President to communicate reasons for removal of an Inspector General to
  Congress, and is not a routine or periodic reporting requirement of the type
  included in the Act's scope.

In addition, the OIG provided comments on the following proposed
regulations:

• Electronic Modifications Pilot, Multiple Award Schedule (MAS) Program.
  Wc provided comments to GSA on a pilot program currently under
  development which would allow all information technology MAS Program
  contractors to submit certain contract modifications, including product
  additions, deletions, and price reductions, electronically. We noted that the
  proposed language of the clause should be revised to reflect more clearly
  the stated objective that only price reductions involving new price lists
  could be accomplished through an electronic modification. Also, we
  recommended retention of existing language by which addition of items
  should be accomplished electronically only if the contractor provides a
  statement that addition of the item would not affect pricing and discount
  information submitted to negotiate the contract.

• Evergreen Contracting, MAS Program. We provided comments to GSA
  on an initiative under development to extend MAS contract terms to a base
  period of 5 years together with three 5-year option periods in an effort to
  save the administrative costs associated with negotiating MAS contracts
  anew. This initiative is referred to as Evergreen Contracting. We
  commented that although we had no inherent objection to restructuring
  MAS contracts by adding option periods, we had serious concerns with the
  method by which the Evergreen initiative was to be implemented. The
  acquisition letter embodying the initiative failed to require both that
  contracting officers (COs) conduct a price reasonableness analysis when
  exercising options, and that the analysis be done with specific reference to
  most-favored-customer pricing, a centerpiece of the MAS Program. We
  stated that the Evergreen initiative would contravene the mandate of the
  General Services Acquisition Regulation (GSAR) that COs only exercise
  options if they affirmatively determine that the option price is fair and
  reasonable. We commented that, in our opinion, the practical result of
  failing to require a price reasonableness analysis would be to significantly
  undermine pricing under the MAS Program. We also wondered whether
  any administrative cost savings would actually result from the initiative.




                                                 Office of Inspector General 31
                                                              and Regulations




                                       • Review of Proposed Revision of GSA Freedom of Information Act
                                         Procedures. We reviewed the Agency's draft order revising GSA's
                                         Freedom of Information Act (FOIA) procedures, which reflect recent
                                         statutory changes to the FOlA. The proposed order provides detailed
                                         guidance to GSA personnel on responding to FOIA requests in compliance
                                         with statutory requirements, including the Electronic Freedom of
                                         Information Act Amendments of 1996, and in accordance with
                                         Government policy encouraging disclosure to the maximum extent
                                         practicable. Our comments to the Agency noted one particularly burden-
                                         some requirement, that is, the requirement to retain records that were the
                                         subject of a denial of a FOIA request for 6 years after making a final
                                         administrative detennination. While such retention might be reasonable if
                                         a requester asked for an easily retrievable, discrete set of documents, we
                                         noted that if the request was for a large number of documents which may
                                         not have been in an existing system of files, or were located in a number
                                         of different locations, then the retention requirement could be unduly
                                         burdensome.




32 Semiannual Report to the Congress
                                       Summary




                                         udit
                                       The OIG issued 104 audit rcports. Thc 104 rcports containcd financial
                                       recommendations totaling $41,534,889, including $20,120,929 in
                                       recommendations that funds be put to better use and $21,413,960 in
                                       questioned costs. Due to GSA's mission of negotiating contracts for
                                       Governmentwide supplies and services, most of the savings from
                                       recommendations that funds be put to better use would be applicable to other
                                       Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of
                                       September 30, 1999. Four reports more than 6-months old were awaiting
                                       management decisions as of September 30, 1999; all of them were preaward
                                       audits, issued before February 10, 1996, which are not subject to the 6-month
                                       management decision requirement. Table 1 does not include 1 report issued
                                       to another agency this period. Table 1 also does not include 23 reports
                                       excluded from the management decision process because they pertain to
                                       ongoing investigations.


                        Table          Management Decisions on OIG Audits
                                                                           Reports with        Total
                                                          No. of             Financial       Financial
                                                         Reports         Recommendations Recommendations

For which no management decision
had been made as of 4/1/99
  Less than six months old                                  39                   25                $ 61,998,558
  Six or more months old                                     4                    3                     345,655
Reports issued this period                                 103
                                                           -------
                                                                                 42                  41,199,69 3
TOTAL                                                      146                   70                $103,843,876
For which a management decision
was made during the reporting period
 Issued prior periods                                       39                   25                $ 61,998,558
  Issued current period                                     60                   16                ..12J3.Q}~71
TOTAL                                                       99                   41                $ 81,802,529
For which no management decision
had been made as of 9/30/99
  Less than six months old                                  43                   26                $ 21,695,692
  Six or more months old                                     4                    3                ____ .3.45.,§~5
TOTAL                                                       47                   29                $ 22,041,347




                                                                                       Office of Inspector General 33
                                       Summary            OIG Accomplishments




                                                                            on Audit                      with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                       Table 2. Management Decisions on OIG Audits with
                        Recommendations that Funds be Put to Better Use

                                                                 No. of                         Financial
                                                                Reports                     Recommendations

 For which no management decision had
 been made as of 4/1/99
   Less than six months old                                        24                         $61,310,245
   Six or more months old                                           3                             345,655
 Reports issued this period                                        28                          20,085,703
                                                                                              -~~.   ~----".-.-




 TOTAL                                                              55                        $81,741,603
 For which a management decision was
 made during the reporting period
  Recommendations agreed to by
  management based on proposed
   -management action                                                                         $63,489,364
   -legislative action
  Recommendations not agreed to
  by management                                                                                              o
 TOTAL                                                              34                        $63,489,364
 For which no management decision had
 been made as of 9/30/99
   Less than six months old                                         18                        $17,906,584
   Six or more months old                                            3                            345,655
 TOTAL                                                              21                        $18,252,239




34 Semiannual Report to the Congress
                                                 Accomplishments




                       Table 3. Management Decisions on OIG Audits
                                  with Questioned Costs

                                                 No. of                  Questioned
                                                Reports                    Costs

For which no management decision
had been made as of 4/1/99
  Less than six months old                          1                $     688,313
  Six or more months old                            o                             o
Reports issued this period                         14                    21,413,960
TOTAL                                              15                $22,102,273
For which a management decision
was made during the reporting
period
  Disallowed costs                                                   $16,770,422
  Costs not disallowed                                               _J_~_4~_z1~1
TOTAL                                               7                $18,313,165
For which no management decision
had been made as of 9/30/99
  Less than six months old                          8                $ 3,789,108
  Six or more months old                            o                            o
TOTAL                                               8                $ 3,789,108




                                                                Office of Inspector General 35
                       Statistical Summary of                     Accomplishments




                                                           Workload
                                       010 opened 82 investigative cases and closed 60 cases during this period. In
                                       addition, the OIG received and evaluated 64 complaints and allegations from
                                       sources other than thc Hotline that involved GSA employees and programs.
                                       Based upon our analyses of these complaints and allegations, OIG
                                       investigations were not warranted.

                                       Referrals
                                       The OrG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA officials
                                       on celiain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the Government.


                                  Table 4. Summary of OIG Referrals

            Jype()! R~~~~~_~_~_~_~___~ __~~s~s__ ~ __~ __ ~ _~~~~~~_~__~~~~ __ Subjec~
            Criminal                                      30                                     55
            Civil                                          6                                     13
            Administrative                                84                                    201
            TOTAL                                       120                                     269

                                       In addition, the OIG made 18 referrals to other Federal activities for further
                                       investigation or other action and 17 referrals to GSA officials for information
                                       purposes only.

                                       Actions on DIG Referrals
                                       Based on these and prior referrals, 16 cases (26 subjects) were accepted for
                                       criminal prosecution and 8 cases (13 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       10 indictments/informations and 9 successful prosecutions. OIG civil
                                       referrals resulted in 8 cases being accepted for civil action and 9 case
                                       settlements. Based on OIG administrative referrals, management debarred
                                       27 contractors, suspended 27 contractors, and took 3 personnel actions
                                       against employees.




36 Semiannual Report to the Congress
          Statistical Summary of OIG                     ccomplishments




                            Monetary Results
                            Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                            restitutions payable to the U.S. Government as a result of criminal and civil
                            actions arising from OIG referrals.

                            tn addition, the OlG had administrative recoveries of $1,989,373 during the
                            course of its investigations, predominantly in investigative savings.




                      Table 5. Criminal and Civil Recoveries
                                                 Criminal                            Civil

Fines and Penalties                              $ 2,225                     $

Settlements and Judgments                                                        1,499,000

Restitutions                                      128,400

TOTAL                                           $130,625                     $1,499,000




                                                                             Office of Inspector General 37
I
Under the Agency audit management decision process,           Initiatives to Improve Space
the GSA Office of the Chief Financial Officer, Office
of the Controller, is responsible for tracking the            Alterations
implementation of audit recommendations after a               Period First Reported: October 1, 1998 to March 31, 1999
management decision has been reached. That officc
                                                              The review assessed GSA's information system designed
furnished the following status information.
                                                              to manage vacant space. The rcport contained three
Nineteen audits highlighted in prior Reports to the           recommendations; none has been implemented.
Congress have not yet been fully implemented; all are
being implemented in accordance with currently                The recommendations include reevaluating the program
established milestones.                                       perfonnance measures; standardizing data requirements;
                                                              and providing customers with timely billings and
            to Building Design Plans                          ensuring timely recovery of funds. They are scheduled
                                                              for completion between March 15, 2000 and June 15,
Period First Reported: October /, 1998 to March 31, 1999
                                                              2000.
The review focused on the accessibility to the general
public of building plans. The report contained two            Security Standards for New Buildings
recommendations; one has been implemented.
                                                              Period First Reported: October 1, 1998 to March 31, 1999
The remaining recommendation involves sharing the             The review evaluated security standards for new and
results of the review with appropriate Agency officials. It   renovated Federal buildings. The report contained two
is scheduled for completion by January 15,2000.               recommendations; neither has been implemented.
Building Income Statement Reliability                         The recommendations include developing a policy that
Period First Reported: October 1, 1998 to March 31, 1999      defines roles and responsibilities of individuals involved
                                                              in enhanced building standards, and creating security
The review assessed regional general and administrative
                                                              standards for newly acquired leased space. They are
expense details. The report contained two recommenda-
                                                              scheduled for completion by January 15,2000.
tions; one has been implemented.
                                                              Controls              Direct Building
The remaining recommendation involves verifying the
accuracy of income statement data. It is scheduled for        Period First Reported: October 1, 1998 to March 31, 1999
completion by January 15,2000.                                The review focused on the controls over building
                                                              financial statements. The report contained four recom-
Costly Lease Space Alterations
                                                              mendations; three have been implemented.
Period First Reported: October 1, 1998 to March 31, 1999
The review evaluated documentation used to substantiate       'The remaining recommendation involves issuing
the pricing of change orders associated with a new lease      instructions clarifying GSA's capitalization policies. It is
build-out. The report contained three recommendations;        scheduled for completion by October 15, 1999.
none has been implemented.
                                                              Year 2000 Conversion Efforts
The recommendations include re-emphasizing the impor-         Period First Reported: October 1, 1998 to March 31, 1999
tance of complete and accurate documentation; ensuring
                                                              The review focused on GSA's efforts to convert its
that documents are prepared on time and properly dated;
and establishing a firm source of funding for any change      National Electronic Accounting and Reporting system
order. They are scheduled for completion by October 15,       to be Y2K compliant. The report contained five
1999.                                                         recommendations; four have been implemented.


                                                                                              Office ofInspector General 41
                     Appendix




The remaining recommendation involves ensuring that all         Information Systems Security
data exchanges will operate correctly. It is scheduled for
completion by November 15, 1999.                                Period First Reported: Aprill, 1998 to September 30, 1998
                                                                The review assessed the security measures of six major
Security Enhancements in Federal
                                                                Internet and Intranet GSA applications. The report con-
Buildings                                                       tained four recommendations; one has been implemented.
Period First Reported: April 1, 1998 to September 30, 1998
The review evaluated GSA's program for upgrading                The remaining recommendations include establishing
security in Federal buildings. The report contained six         an Information Technology (IT) Security Program;
recommendations; four have been implemented.                    specifying roles and responsibilities for systems to ensure
                                                                security; and basing IT security decisions on risk
The remaining recommendations involve establishing an           assessments. They arc scheduled for completion between
inventory over x-ray units and portable equipment, and          November 15, 1999 and January 15,2000.
tracking and reporting cost data for future counter-
measures. They are both scheduled for completion by
January 15,2000.                                                Agency Conferences Management
                                                                Period First Reported: April 1, 1998 to September 30, 1998
Travel Management Program Funding
                                                                The review focused on the controls over Agency
Fee                                                             conference site selections and expenditures. The report
Period First Reported: April 1, 1998 to September 30, 1998      contained four recommendations; three have been
The review assessed GSA's Travel Management                     implemented.
Program funding fee. The report contained seven
recommendations; four have been implemented.                    The remaining recommendation involves documentation
                                                                relative to the conference, attendees, alternative sites,
The remaining recommendations include combining two             costs, and appropriate approval. It is scheduled for
forms into one; developing a database; and establishing         completion by October 15,1999.
one industrial funding fee for all customers. They are
scheduled for completion between October 15, 1999 and           IMPAC Credit Card Program
January 15,2000.                                                Period First Reported: October 1, 1997 to March 31, 1998

Electronic Commerce Shopping                                    The evaluation focused on the controls over the use of the
                                                                International Merchant Purchase Authorization Cards
Period First Reported: April 1, 1998 to Septemher 30, 1998
                                                                (lMPAC) for small purchases. The report contained four
The review assessed GSA's efforts to place four million
                                                                recommendations; one has been implemented.
items on the GSA Advantage system. The report
contained five recommendations; four have been
                                                                The remaining recommendations include improving
implemented.
                                                                management controls; developing a review program of
The remaining recommendation involves developing a              card practices and transactions; and providing training.
plan to achieve the project's objectives. It is scheduled for   They are scheduled for completion between October 15,
completion by November 15, 1999.                                1999 and December 15, 1999.




42 Semiannual Report to The Congress
                                                              Administration of Real                           Taxes
Period First Reported: October 1, 1997 to March 31, 1998      Period First Reported: April 1, 1997 to September 30, 1997
The review focused on GSA's plans to consolidate              The review examined the real estate tax administration
security control centers into four megacenters. The           of GSA's leases. The report contained two recommenda-
report contained four recommendations; none has been          tions; one has been implemented.
implemented.
                                                              The remaining recommendation involves modifying
The recommendations include developing alternate              contract procedures to ensure the Government receives
access procedures; developing contingency plans to            its share of reductions in real estate taxes. While all
continue the dispatch function during natural disasters;      pertinent actions have been taken, it remains open until all
upgrading alarm systems; and implementing a preventive        recovery actions are completed. It IS scheduled for
alarm maintenance program. They are scheduled for             completion by Novcmber 15, 1999.
completion by June 15,2000.
                                                              Debarment Program
                                                              Period First Reported: October 1, 1996 to March 31, 1997
Period First Reported: October 1, 1997 to March 31, 1998
                                                              The review identified opportunities for improving
The review identified opportunities for improving             the Debarment Program. The report contained two
                                                              recommendations; one has been implemented.
workload management. The report contained one
recommendation; it has not yet been implemented.              The remaining recommendation involves modifying
                                                              the new contractor information system and is scheduled
The recommendation involves the need to automate              for completion by January 15,2000.
key activities of the contracting process. It is scheduled
for completion by December 15, 2000.                          Aircraft Management
                                                              Period First Reported: October 1, 1995 to March 31, 1996
Federal Protective Service
Investigation Office                                          The review identified opportunities for improving GSA's
                                                              program to assist civilian agencies with the management
Period First Reported: April 1, 1997 to September 30, 1997    and cost-effectiveness of their aircraft operations.
The evaluation focused on a review of the Federal             The report contained five recommendations; four have
Protective Service's criminal investigation activities. The   becn implemented.
report contained five recommendations; three have been
implemented.                                                  The remaining recommendation concerns the identification
                                                              of aircraft data necessary for making informed decisions
The remaining recommendations include establishing            and is scheduled for completion by October 15, 1999.
measurable performance standards and improving
program accountability.    They are scheduled for
completion by January 15,2000.




                                                                                              Office of Inspector General 43
                                                    II-Audit              Register

                                                                                            Financial
                                                                                       Recommendations
                                                                                                    -"--_. __._-_ ...
                                                                                                             -


                                                                                  Funds to            Questioned
Date of          Audit                                                           Be Put To         (Unsupported)
Report           Number                     Title                                Better Use                 Costs


(Note: Because some audits pertain to contracting award or actions which
have not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)
FSS Management Consulting Reviews
OS/21199         A995197 Management Consulting Review of California
                         State Agency for Surplus Property Reporting of
                         Donated Property Requested, Received, and
                         Distributed to Donees

PBS Internal Audits
04/13/99         A995112 Review of Intrabudget Activity Authorizations in
                         Region 2

04/20/99         A995095 Audit of National Capital Region Antenna
                         Program

04/21199         A995160 Review of Asbestos Abatement Practices,
                         Theodore Levin U.S. Courthouse, Michigan
                         Property Management Center, Detroit, Michigan

04/30/99         A995160 Review of Elevator Maintenance Contract, Patrick
                         V. McNamara Federal Building, Michigan
                         Property Management Center, Detroit, Michigan

05111/99         A995131 Review of Region 7 Lease Termination and
                         Buyout Procedures

05/12/99         A83608      PBS Is Faced with Critical Decisions in Assessing
                             the Future of Its Electronic Acquisition System

06/07/99         A995175 Alert Rcport on Security Guard Background
                         Checks

06/08/99         A995198 Alert Report on Security at the Ronald Reagan
                         Building

06/10/99         A995160 Review of Plumbing Maintenance Practices,
                         Immigration and Naturalization Service Building,
                         Michigan Property Management Center, Detroit,
                         Michigan




44 Semiannual Report to The Congress
                                           II-A


                                                                                :Financial
                                                                             Recommendations
                                                                        -Fund-StO----~estioned-

Date of    Audit                                                        Be Put To         (Unsupported)
Report     Number                  Title                                Better Use            Costs


07/02/99   A995160 Review of the Elevator Maintenance Contract,
                   Charles Chamberlain Post Office and Federal
                   Building, Michigan Property Management Center

07/09/99   A83610   Audit of Progress Made in Converting GSA's Public
                    Buildings Service Computer Systems to Operate in
                    the Year 2000

08/20/99   A995121 Review of Lease Administration, Northwest/Arctic
                   Region

08/20/99   A995160 Review of Asbestos Abatement Practices, Gerald R.
                   Ford Federal Building and Courthouse, Michigan
                   Property Management Center

08/23/99   A995146 Review of the National Capital Region's Public
                   Buildings Service Reorganization

08/30/99   A995125 Review of Small Purchases, Federal Protective
                   Service, Public Buildings Service, Pacific Rim
                   Region

09/07/99   A995108 Management Control Review: Public Buildings
                   Service, Property Management Operations and
                   Maintenance Contracts

09/07/99   A995172 Review of the Proposed Sale of the George W.
                   Whitehurst Federal Building to the City of Fort
                   Myers, Florida

09110/99   A995174 Audit of National Capital Region Fire Safety
                   Program

09/28/99   A995021 Audit of Management Controls for Non-Recurring
                   Reimbursable Work Authorizations

09/28/99   A995030 Audit of Third Party Liability for the Cost of
                   Hazardous Waste Removal, New Boston Federal
                   Courthouse

09/29/99   A995193 Audit of Courthouse Construction and Contracting
                   Practices

09/30/99   A995172 Review of Public Buildings Service, Property
                   Disposal Transfers


                                                                                Office of Inspector General 45
                                                                                            Financial
                                                                                       Recommendations
                                                                                 ----------   - --------------------_.--   --- - - - - - - - - - -


                                                                                 Funds to             Questioned
Datc of          Audit                                                           Be Put To         (Unsupportcd)
Report           Number                    Title                                 Retter Use             Costs


09/30/99          A995204 Audit of the National Capital Region Outleasing
                          Program

PBS Contract Audits
04/01/99          A995182 Preaward Audit of Architect and Engineering
                          Services Contract: Staunton Chow Engineers,
                          P.C., Solicitation Number GS-02P-98-PLD-
                          0015(N)

04/13/99          A80309     Postaward Audit of Change Order Costs: The
                             Clark Construction Group, Inc., Contract Number
                             GS02P94CUC0039(N)

04/29/99          A995178 Postaward Audit of Liability Insurance Costs: Six
                          World Trade Center, New York, NY, Lease
                          Number GS-02B-15370

04/30/99          A995176 Preaward Audit of a Claim: Honeywell Inc.,
                          Subcontractor to Reliable Contracting Inc.,
                          Contract Number GS-02P-91-CUC-0045(N)

05/05/99         A995151 Preaward Audit of Supplemental Architect and
                         Engineering Services Contract: Wank Adams
                         Slavin Associates, Solicitation Number GS-02P-
                         98-PLD-0015(N)

05/06/99         A995219 Preaward Audit of Small Business Administration
                         8(A) Pricing Proposal: Intersteel, Inc., Solicitation
                         Number GS-04P-99-RBC-0028

05/10/99         A995207 Audit of Recoverable Costs - FY 1997: Six World                                           $46,683
                         Trade Center, New York, NY, Lease Number GS-
                         02B-15370

OS/20/99         A995187 Preaward Audit of Sole Source Contract:
                         Permanent Solution Industries, Inc., Solicitation
                         Number GS-llP99ZGC0041

06/07/99         A995232 Preaward Audit of Cost Accounting Standards
                         Disclosure Statement for Caddell Construction
                         Company, Solicitation Number GS-04P-99-EXC-
                         0011




46 Semiannual Report to The Congress
                                                                                   Financial
                                                                              Recommendations   ""----~




                                                                        Funds to             Questioned
Date of    Audit                                                        Be Put To         (Unsupported)
Report     Number                  Title                                Better Use             Costs


06/15/99   A995206 Audit of Recoverable Costs -. FY 1995: Six World
                   Trade Center, New York, NY, Lease Number GS-
                   02B-15370

06/18/99   A995220 Audit of Claim for Increased Costs: PM Realty
                   Group, Ltd., Contract Number GS05P96GAC0187

06/21/99   A995189 Preaward Audit of Cost or Pricing Data: A. Arnold
                   & Associates, Inc.,       Solicitation Number
                   GS06P99GYC0005(N)

06/23/99   A995222 Preaward Audit of Cost or Pricing Data: Mcycr,
                   Scherer & Rockcastle, Ltd., Solicitation Number
                   GS06P98GZC0514

06/24/99   A995231 Audit of Small Business Subcontracting Plan: Rael                        $230,539
                   Automatic Sprinkler Company, Inc., Contract
                   Number GS-02P-95-DTC-OO 14(N)

06/25/99   A995250 Pre award Audit of Architect and Engineering
                   Services Contract: Witsell, Evans & Rasco, P.A.,
                   Solicitation Number GS-07P-99-UTC-0002

07/07/99   A995209 Audit of Claim for Increased Costs: The Spector
                   Group, Contract Number GS-02P-92CUC0029(N)

07/07/99   A995249 Audit of Small Business Subcontracting Plan: L.                          $126,218
                   Martone and Sons, Inc., Contract Number GS-02P-
                   95-DTC-OOI4(N)

07/09/99   A995230 Prcaward Audit of Claim for Increased Costs:
                   Howard Needles Tammen & Bergendoff, Contract
                   Number GS-IIP90EGCO 142

07/12/99   A995247 Pre award Audit of Architect and Engineering
                   Services Contract: RTKL Associates, Inc.,
                   Solicitation Number GS-07P-99-UTC-0002

07/29/99   A995260 Preaward Audit of Cost or Pricing Data: Marquez
                   Constructors, Inc., Solicitation Number GS-08P-99-
                   JBC-0056




                                                                               Office of Inspector General 47
                                                                                           Financial
                                                                                    -
                                                                                      Recommendations
                                                                                        - ----- --------   ----------------.---.,--.-~




                                                                                Funds to             Questioned
Date of          Audit                                                          Be Put To         (Unsupported)
Report           Number                     Title                               Better Use             Costs


08/11/99         A995279 Pre award Audit of Small Business Administration
                         8(A) Pricing Proposal: IOCAD Engineering
                         Services, Inc., Solicitation Number GS-04P-99-
                         CXD-0004

09/02/99         A995297 Preaward Audit of Cost or Pricing Data: Woodard
                         Contract LLC, Subcontractor to Niehaus Con-
                         struction, Inc.llnterior Construction, Solicitation
                         Number GS06P99GZC0302

09/09/99         A995294 Preaward Audit of Cost Accounting Standards
                         Disclosure Statement for Beers Construction
                         Company, Solicitation Number GS-04P-99-EXC-
                         0019

09/29/99         A995265 Audit of Claim for Increased Costs: Marino
                         Construction Company, Inc., Contract Number
                         GS05P90GBCO 10 1, Phase II

09/30/99         A995285 Audit of Claim for Increased Costs: Marino
                         Construction Company, Inc., Contract Number
                         GS05P90GBC0213, Phase 1Il

FSS Internal Audits
05/11/99         A995181 Review of the Purchase and Utilization of
                         Alternative Fuel Vehicles in the Greater
                         Southwest Region

05/28/99         A83309      Audit of the Federal Supply Service's Industrial
                             Funding Fee for the Schedules Program

06/08/99         A83610      Audit of Progress Made in Converting GSA's
                             Federal Supply Service Computer Systems to
                             Operate in the Year 2000

06/21199         A995152 Review of Puerto Rico Fuel Tax Issue

08123/99         A81804      Review of Federal Supply Schedule 75-III-A
                             Next-Day Desktop Delivery of Office Products

08/26/99         A995191 Review of Operations of FSS's Hardware and
                         Appliances Center




48 Semiannual Report to The Congress
                                                                                       Financial
                                                                                  Recommendations
                                                                            "---------   -------------------------

                                                                             Funds to            Questioned
Date of        Audit                                                        Be Put To         (Unsupported)
Report         Number                  Title                                Better Use             Costs


09/13/99       A995261 Audit of the Federal Personal Property Donation
                       Program, State of Louisiana

09/14/99       A995203 Review of Southwestern Distribution Center
                       Warehouse 9 Improvements

09/21199       A80305   Preventative Audit: Federal Supply       Service,
                        Waltham Fleet Management Center

09/22/99       A995307 Review of Personal Property Transfer, Sale, and
                       Disposal Procedures
          Contract
04/30/99       A995195 Audit of Termination Proposal: LHB Industries,
                       Agreement Number GS-10F-40335

OS/28/99       A995143 Postaward Survey of Multiple Award Schedule
                       Contract: In Focus Systems, Inc., Contract Number
                       GS-35F-4138D for the Interim Period November 1,
                       1997 to April 30, 1998

06/07/99       A995214 Limited Scope Postaward Audit of the Industrial
                       Funding Fee Submitted Under Multiple Award
                       Schedule Contract Number GS-29F-0232D: Open
                       Plan Systems, Inc.

06/08/99       A995192 Limited Postaward Audit of Multiple Award                                 $152,751
                       Schedule Contract for the Period April 1, 1997
                       Through February 28, 1999: Danka Office Imaging
                       Company, Contract Number GS-26F-l 018B

06/15/99       A42113   Postaward Audit of Multiple Award Schedule                           $15,021,402
                        Contract: Herman Miller Inc., Contract Number GS-
                        00F-07000

06/15/99       A995171 Audit of Incurred Costs: Niagara Mohawk Power
                       Corporation, Contract Numbers EMN-1999-MO-
                       2032 & EMN-1999-MO-2036

06/22/99       A995164 Preaward Audit of Multiple Award Schedule
                       Contract: Compaq Computer Corporation, Extension
                       to Contract Number GS-35F-4544G




                                                                                   Office of Inspector General 49
                                                  /I-Audit Report Register


                                                                                      Financial
                                                                                  Recommendations
                                                                            ,------~--~   -----------   ---------_.


                                                                            Funds to         Questioned
Date of          Audit                                                      Be Put To      (Unsupported)
Report           Number                   Title                             Better Use          Costs


06/30/99          A995235 Pre award Audit of Multiple Award Schedule
                          Contract: Contract Decor, Inc., Contract Number
                          GS-03F-6006D, Modification Number SP04, for
                          the Period July 1, 1999 to June 30, 2004

07/12199         A995253 Preaward Audit of Multiple Award Schedule
                         Contract: Aladdin Temp-Rite, LLC, Solicitation
                         Number 7FXG-Y8-97-7354-B

07/29199         A995239 Preaward Review of Multiple Award Schedule
                         Contract for the Extension Period July 1, 1999
                         Through June 30, 2004: Thomas W. Raftery, Inc.,
                         Contract Number GS-03F-6019D

07/30199         A995149 Audit of Incurred Costs: Northeast Utilities
                         Service Company, Contract Numbers EMN-1999-
                         MO-2032 & EMN-1999-MO-2036

07/30199         A995173 Audit of Incurred Costs: Duke Engineering &
                         Services, Contract Numbers EMR-1999-MO-2032
                         & EMN-1999-MO-2036

07/30199         A995240 Pre award Audit of Multiple Award Schedule
                         Contract for the Extension Period July 1, 1999
                         Through June 30, 2004: Wythe Contract Sales
                         Company - BEl, Contract Number GS-03F-6004D

08112199         A995215 Audit of Incurred Costs: KeySpan Energy,
                         Contract Numbers EMN-1999-MO-2032 & EMN-
                         1999-MO-2036

08112199         A995236 Pre award Audit of Multiple Award Schedule
                         Contract: Fabricare Draperies, Inc., Contract
                         Number GS-03F"5116C

08119199         A41245      Postaward Audit of Multiple Award Schedule                           $432,301
                             Contract: Neotronics of North America,
                             Incorporated, Contract Number GS-00F-2304A

08/20/99         A995202 Postaward Survey of Multiple Award Schedule
                         Contract: ACMA Computers, Inc., Contract
                         Number GS-35F-4591G for the Interim Period
                         September 1, 1998 Through February 28, 1999




50 Semiannual Report to The Congress
                                              udit

                                                                                         Financial
                                                                                   Recommendations
                                                                         ""--"-"--"--"--       .~~-~



                                                                           Funds to                Questioned
Date of    Audit                                                          Be Put To             (Unsupported)
Report     Number                  Title                                 Better Use                  Costs


08/20/99   A995234 Postaward Survey of Multiple Award Schedule
                   Contract: Sentrol, Incorporated, Contract Number
                   GS-07F-8791D for the Interim Period May 1, 1998
                   to October 31, 1998

08/20/99   A995241 Pre award Audit of Multiple Award Schedule
                   Contract: Dec Art Designs, Inc., Contract Number
                   GS-03F -51 06C

OR/25/99   A21548   Postaward Audit of Multiple Award Schedule                               $1,333,914
                    Contract: Precision Manufacturing, Inc., Contract
                    Number GS-00F-02388 for the Period April 1, 1988
                    Through March 31, 1991

8/25/99    A995212 Limited Scope Postaward Audit of Multiple Award
                   Schedule Contract for the Period September 20,
                   1995 Through March 31, 1999: Millipore
                   Corporation, Contract Number GS-24F-1501C

08/31/99   A995238 Pre award Audit of Multiple Award Schedule
                   Contract: ADM International, Inc., Contract Number
                   GS-03F -6008D

09/09/99   A82457   Postaward Audit of Multiple Award Schedule                                 $607,725
                    Contract: Advanced Logic Research, Inc., Contract
                    Numbers GS-00K-93-AGS-6261 and GS-35F-
                    3006D for the Period April 1, 1993 Through
                    March 31, 1998

09/09/99   A995283 Pre award Review of Multiple Award Schedule
                   Contract: National Education Training Group, Inc.,
                   Contract Number GS-02B-22885

09/10/99   A60942   Postaward Audit of Multiple Award Schedule                                 $780,235
                    Contract: Datacard Corporation, Contract Number
                    GS-OOF -7173A for the Period July 31, 1992 Through
                    June 30, 1995

09/10/99   A995225 Postaward Audit of Multiple Award Schedule                                     $8,317
                   Contract: Millipore Corporation, Contract Number
                   GS-24F-1338C for the Interim Period May 1, 1995
                   Through March 31, 1999




                                                                                  Office ofInspector General 51
                                                                                          Financial
                                                                                     Recommendations
                                                                               ~----~---------~.-   -   ---------


                                                                               Funds to             Questioned
Date of          Audit                                                         Be Put To         (Unsupported)
Report           Number                    Title                               Better Use             Costs


09/15/99         A52534      Postaward Audit of Multiple Award Schedule                                     $262,041
                             Contract: Intermec Corporation, Contract Number
                             GSOOK91AGS5288

09/15/99         A52565      Postaward Audit of Multiple Award Schedule                                     $800,137
                             Contract: Intermec Corporation, Contract Number
                             GSOOK91AGS5288 (PSOl)

09/15/99          A52566     Postaward Audit of Multiple Award Schedule                                 $1,603,980
                             Contract: Intermec Corporation, Contract Number
                             GSOOK91AGS5288 (PS02)

09/20/99         A995237 Preaward Audit of Multiple Award Schedule
                         Contract Extension: Stan Schwartz Associates,
                         Inc. dba Skyline Mills, Contract Number GS-03F-
                         6018D

09/21199         A995316 Limited Scope Postaward Audit of Contract                                              $5,717
                         Billings: Stan Schwartz Associates, Inc. dba
                         Skyline Mills, Contract Number GS-03F-6018D

09/23/99         A995296 Pre award Audit of Multiple Award Schedule
                         Contract: TCT Technical Training, Inc., Contract
                         Number GS-02F-9308C for the Period October 1,
                         1999 to September 30,2004

09/23/99         A995306 Pre award Audit of Multiple Award Schedule
                         Contract: Action Target, Inc., Solicitation Number
                         7FXG-B3-841l-B

FTS Internal Audits
OS/26/99         A83020      Audit of Federal Technology Service Payments

08/31/99         A995194 Audit of FTS Local Telecommunications Services

09/17/99         A81548      Review of FTS Financial Management Systems

09/24/99         A995l85 Review of the Federal Technology Service's
                         Response to the Small Business Administration's
                         Concerns Related to 8(a) Contracts Awarded
                         Under the FAST Program in Kansas City

09/29/99         A995218 Audit of Federal Technology Service Information
                         Technology Solutions Internal Controls


52 Semiannual Report to The Congress
                         Appendix             udit Report Register

                                                                                Financial
                                                                              Recommendations
                                                                        Funds to ------ Questioned-
Date of    Audit                                                        Be Put To      (Unsupported)
Report     Number                  Title                                Bettcr Usc          Costs


Other Internal Audits
04115/99   A82709   Limited Audit of the Federal Supply Service's
                    "Consolidation Savings" and "Market Penetration"
                    Performance Measures

04/15199   A995015 Review of the General Services Administration's
                   Delinquent Non-Federal Debt

06116199   A995140 Review of Heartland Finance Center's Handling of
                   Allowance for Doubtful Accounts

06122/99   A995127 Review of Heartland Finance Center's Delinquent
                   Federal Accounts Receivable and Write-Offs

07115/99   A82706   PricewaterhouseCoopers LLP Management Letter,
                    Fiscal Year 1998 Financial Statement Audit

09/30/99   A995016 Security Weaknesses Place GSA's Local Area
                   Networks at Undue Risk

Non-GSA Contract Audits
06/15/99   A995223 Pre award Audit of Cost or Pricing Data: Shell Oil
                   Company




                                                                              Office of Inspector General 53
   Appendix III-Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit          after the report issuance date. The GSA Office of the
Recommendations, of the National Defense Authorization       Chief Financial Officer, Office of the Controller, furnished
Act, (Public Law 104-106), this appendix identifies those    the following information.
audit reports where final actions remain open 12 months

 Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of          Audit
Report           Number                                          Title



Contract Audits
08/15/96         A51827        Postaward Audit of Multiple Award Schedule Contract: Sybase, Inc., Contract Number
                               GSOOK92AGS5576 for the Period September 9, 1992 Through September 30, 1993

09/20/96         A61534       Preaward Audit of a Claim: Marino Construction Company, Contract Number
                              GS05P90GBCO 10 1

10117/96         A53617       PostawardAudit of Multiple Award Schedule Contract: Cantwell-Cleary Co., Inc., Contract
                              Number GS-02F-6071A for the Interim Period March 31,1992 Through October 31,1994

11/01/96         A21882       Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                              Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                              September 30, 1991

11/01196         A31851       Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                              Contract Number GS-00F-02598 for the Period August 26, 1988 Through March 31, 1991

11/01/96         A31865       Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                              Contract Number GS-00F-02046 for the Period December 4, 1987 Through September 30,
                              1990

12117/96         A 70606      Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract Number
                              GS-00K-89AHD0007

01110/97         A52159       Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems, Inc.,
                              Contract Number GS-00K-91-AGS-5201

02/06/97         A 70622      Preaward Audit of Change Order Proposal: Turner Construction Company, Contract
                              Number GS-02P-95-DTC-0014

03/17/97         A 72433      Audit of Real Estate Tax Adjustments: L.A. World Trade Center Partnership and Royal
                              Investment System Partnerships, Lease Number GS-09B-85563, Calendar Years 1989
                              Through 1996

03/21/97         A 70632      Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number GS-02P-
                              94-CUC-0033(N)




54 Semiannual Report to The Congress
   Appendix III-Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                        Title


03/24/97   A72434    Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                     88163, Calendar Years 1990 Through 1996

03/24/97   A72435    Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                     91634, Calendar Ycars 1993 Through 1996

04/03/97   A7245 0   Preaward Audit of a Claim for Increased Costs: Azteca Construction, Inc., Subcontractor
                     to Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

04/04/97   A72437    Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                     91267, Calendar Years 1993 Through 1995

04/04/97   A72436    Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                     90017, Calendar Years 1991 Through 1995

04/18/97   A70628    Postaward Audit of Multiple Award Schedule Contractor: Clayton Associates, Inc.,
                     Contract Number GS-07F-8188B, for the Interim Period June 1, 1994 Through January 31,
                     1997

04/24/97   A71212    Preaward Audit of Cost and Pricing Proposal: The Logistics Company, Inc., Task Order
                     Request GSC-TFGE-97-2002

06/06/97   A73619    Preaward Audit of Cost or Pricing Data: Symbiont, Inc., RFP Number GSC-TFGD-97-
                     1010

06/06/97   A72466    Limited Scope Pre award Audit of Proposed Overhead and Direct Labor Rates: Brayton &
                     Hughes Design Studio, Solicitation Number GS-09P-95-KTC-0029

06/11/97   A61827    Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing
                     Company, Contract Number GS-07F-3956A for the Period February 1, 1992 Through
                     October 31, 1995

06/16/97   A70927    Preaward Audit of Cost or Pricing Data: JIL Information Systems, Inc., Proposal No. GSC-
                     TFGD-97-1012

06117/97   A72464    Limited Scope Pre award Audit of Proposed Overhead and Direct Labor Rates: Moore
                     Ruble Yudell, Solicitation Number GS-09P-95-KTC-0029

06/17/97   A 72470   Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Frederick
                     Brown Associates, Solicitation Number GS-09P-95-KTC-0029

06/24/97   A 70928   Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-TFGD-97-
                     lO14

06125/97   A72445    Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., Contract
                     Number GS-09P-95-KTC-0032




                                                                                    Office of Inspector General 55
                                                           Months                            Action    ..","".".0r<1




Date of          Audit
Report           Number                                           Title
06/26/97          A72471       Limited Scope PreawardAudit of Proposed Overhead and Direct Labor Rates: Tsuchiyama
                               & Kaino, Inc., Solicitation Number GS-09P-95-KTC-0029

06/26/97          A72465       Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                               Subcontractor to Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

06/27/97          A71811       Audit of Claim for Increased Costs, Miscellaneous Subcontractors to:       Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11197          A71803       Audit of Claim for Increased Costs: Nicholson Construction Company, Contract Number
                               GS06P94GYC0037

07/22/97          A 71804      Audit of Claim for Increased Costs: Rodio/ICOS S1. Louis Joint Venture, Subcontractor to
                               Morse Diesel International, Inc., Contract Number GS06P94GYC0037

07/29/97          A61849       Postaward Audit of Multiple Award Schedule Contract: Hytorc, Division of Un ex
                               Corporation, Contract Number GS-06F-77977 for the Period November 1, 1989 Through
                               October 31, 1994

07/30/97          A71819       Postaward Audit of Commercial Acquisition of Multiple Products Contract: Hytorc of
                               Virginia, Inc., Contract Number GS-06F-78361 for the Period November 1, 1994 Through
                               December 18, 1996

07/31/97          A 71820      Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

08/5/97          A73617        Refund from The Committee for Purchase From People Who Are Blind Or Severely
                               Disabled, Agreement Number GS-02F-61511

08/22/97         A 70646       Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070(N)

08/28/97         A 72463       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Gruen
                               Associates, Solicitation Number GS-09P-95-KTC-0029

09/22/97         A 70649       Pre award Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                               Beacon/Pro Con, Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97         A71526       Price Adjustments on Multiple Award Schedule Contract: Domore Corporation, Contract
                              Number OS-OaF -5232A for the Interim Period December 1, 1997 Through January 31,
                              2001

10/02/97         A72478       Audit of Claim for Increased Costs:     Gonzales Construction Company, Inc., Contract
                              Number GS-08P-95-JAC-0001

10/23/97         A70655       Preaward Audit of a Delay Claim: Demon Plumbing and HVAC, Inc., Subcontractor to
                              Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)




56 Semiannual Report to The Congress
   Appendix              _1Il::U,.nor:II'~   over 12 Months        with _..... ::.0. Action Pending


Date of    Audit
Report     Number                                       Title


10/23/97   A72486    Audit of Claim for Increased Costs: Mountain Gravel & Construction Co., Subcontractor
                     to Gonzales Construction Company, Inc., Contract Number GS-08P-95-JAC-0001

10/24/97   A 70660   Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture, Contract
                     Number GS-02P-94-CUC-0070(N)

11112/97   A70656    Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro Con
                     Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11126/97   A22536    Postaward Audit of Multiple Award Schedule Contract:      Ingres Corporation, Contract
                     Number GSOOK89AGS5589

11126/97   A32476    Limited Audit of Government Billings:         Ingres Corporation, Contract Number
                     GSOOK89AGS5589

12110/97   A81512    Preaward Audit of a Claim for Increased Costs: Don-Lee, Inc., Subcontractor to D.L.
                     Woods Construction Inc., Contract Number GS05P91GBC0057

12/24/97   A80602    Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                     Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01112/98   A80604    Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to Beacon/Pro Con
                     Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01112/98   A80608    Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070(N)

02/05/98   A80609    Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                     Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94··CUC-
                     0070(N)

02/11198   A80607    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                     CUC-0070(N)

02/23/98   A82418    Preaward Audit of a Claim for Increased Costs: Walters & Wolf, Subcontractor to Hoffman
                     Construction Company of Oregon, Contract Number GS-1 OP-94-LTC-0041

02/27/98   A83014    Audit of Claim for Increased Costs: Turner Construction Company, Contract Number GS-
                     11P91AQC0060

03/05/98   A80612    Preaward Audit of a Claim: Beckman Construction Company, Contract Number GS-03P-
                     92-CDC-0335

03119/98   A81515    Audit of Claim for Increased Costs: Herman B. Taylor Construction Company, Contract
                     Number GS-07P-92-HUC-0017




                                                                                  Office of Inspector General 57
                                               over        Months Old with Final Action Pending


Date of          Audit
Report           Number                                           Title


03/30/98          A81525       Audit of Real Estatc Tax Escalations, American National Bank, Trustee, Lease Number
                               GS-05B-14966, Tax Years 1992 Through 1995

04/09/98          A72448       Postaward Audit of Multiple Award Schedule Contract: Ungermann-Bass, Inc., Contract
                               Number GSOOK94AGS5367

04/13/98          A80621       Pre award Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                               CUC-0070(N)

04120/98          A81528       Audit of Real Estate Tax Adjustments: American National Bank, Trustee, Lease Number
                               GS-05B-15448, Calendar Years 1994 Through 1996

04/27/98          A82423       Pre award Audit of a Claim for Increased Costs:     HofTman Construction Company of
                               Oregon, Contract Number GS-lOP-94-LTC-0041

04/29/98          A81510       Price Adjustments on Multiple Award Schedule Contract: The Worden Company, Contract
                               Number GS-28F -2067D for the Interim Period May 1, 1998 Through August 31, 2000

04/30/98          A81533       Preaward Review of Multiple Award Schedule Contract: Outboard Marine Corporation,
                               Solicitation Number 7FXG-U5-98-1901-B

OS/27/98          A42146       Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated, Contract
                               Number GS-OOF-07010

06/08/98          A80618       Postaward Audit of Recoverable Costs: Six World Trade Center, New York, NY, Lease
                               Number GS-02B-15370

06/17/98          A83043       Preaward Audit of Architect and Engineering Services Contract: JVP Engineers, P.C.,
                               Solicitation Number GS IlP98EGD0068

06/17/98          A82441       Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS-09P-95-KTC-00IO

06/24/98          A81535       Audit of Real Estate Tax Adjustments: Riggs National Bank of Washington, DC, Trustee
                               for Multi Employer Property Trust (MEPT), Lease Number GS-05B-14919, Calendar
                               Years 1992 Through 1997

06/29/98          A80632       Preaward Audit of a Change Order Proposal: Ava Shypula Consulting, Inc., Contract
                               Number GS-02P-92-CUC-0028

07/02/98          A81526       Postaward Audit of Overbillings, Multiple Award Schedule Contract: The Worden
                               Company, Contract Number GS-28F-2067D for the Interim Period March 7, 1996 Through
                               December 16, 1997

07/17/98         A60934        Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems, Inc.,
                               Contract Number GS-00F-0002A for the Interim Period October 8, 1992 Through
                               February 28, 1997



58 Semiannual Report to The Congress
   Appendix III-Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                       Title


07/24/98   A82415   Preaward Audit of a Claim for Increased Costs: Western Tile and Marble Contractors, Inc.,
                    Subcontractor to Hoffman Construction Company of Oregon, Contract Number GS-I0P-
                    94-LTC-0041

08/07/98   A21578   Postaward Audit of Multiple Award Schedule Contract: Shaw-Walker Company, Contract
                    Number GS-00F-94175

08/07/98   A10830   Postaward Audit of Multiple Award Schedule Contract: Shaw-Walker Company, Contract
                    Number GS-00F-76677

08/12/98   A82451   Preaward Audit of a Claim for Increased Costs: Thermal Management, Inc., Contract
                    Number GS05P95GBC0004

08/12/98   A82452   Audit of Termination Settlement Proposal: Thermal Management, Inc., Contract Number
                    GS05P95GBC0004

09/04/98   A90302   Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture Systems,
                    Contract Number GS-OOF -7 657 4

09/22/98   A80931   Preaward Review of Multiple Award Schedule Contract for the Extension Period April 1,
                    1999 Through March 31, 2004: Computer Associates International, Inc., Contract Number
                    GS-35F-5169H

09/24/98   A80934   Preaward Audit of Multiple Award Schedule Contract: Simple Green, a Division of
                    Sunshine Makers, Inc., Solicitation Number TFTP-97-SC-7906B

09/24/98   A82456   Audit of Termination Settlement Proposal:       Witherington Construction Corporation,
                    Contract Number GS-07P-95-HUC-0068

09/29/98   A82121   Interim Postaward Audit of Multiple Award Schedule Contract: Clark Material Handling
                    Company, Contract Numbers GS-07F-5850A and GS-07F-89940




                                                                                   Office of Inspector General 59
   Appendix III-Audit Reports over                         Months Old with Final Action Pending

Date of          Audit                                                                                    Projected Final
Report           Number                                            Title                                   Action Date



Internal Audits
03/27/96          A43005       Audit of GSA's Aircraft Management Program                                       10/15/99

03/27/96          A62424       Audit of Criminal History Background Checks for Child Care Center                12/15/99
                               Employees

03/29/96          A42720       Audit of Accounting and Billing Controls Over the Public Buildings               10/15/99
                               Service, National Capital Region's Reimbursable Work Authorizations

08/27/96          A62448       Audit of Background Checks on Contractor Personnel                               12/15/99

12/02/96          A63019       Audit of the PAP CAP Price Adjustments                                           10/15/99

01128/97          A63023       Audit of the National Capital Region's Emergency Support Function                10/15/99

03/26/97          A61247       Review of the Public Buildings Service Debarment Program                         01/15/00

07/11/97          A60645       Audit of the Federal Protective Service's Criminal Investigation Program         01/15/00

09/26/97          A70627       Audit of Real Estate Tax and Janitorial Service Contract Payments                11/15/99

01123/98          A70302       Management Control Review, Public Buildings Service, Property                    12115/99
                               Management IMPAC Credit Card Program

01130/98          A72443       Audit of the Megacenter Program, Federal Protective Service, Public              06/15/00
                               Buildings Service

03/12/98          A72473       Audit of Guard Service Contract Awards, Federal Protective Service,              12/15/99
                               Pacific Rim Region

03/30/98          A83007       Follow-up Review of the Contract Workload Management                             12/15/00

06/23/98          A70924       Audit of Industrial Funding Fee, Federal Supply Service, Travel                  01115/00
                               Management Center Program

08/31198         A83307        Audit of the FSS's Efforts to Place Multiple Award Schedule Items on             11115/99
                               GSA Advantage

09/14/98         A70642        Audit of The Federal Protective Service's Program for Upgrading                  01115/00
                               Security at Federal Facilities

09/24/98         A83602        GSA's Information Systems Security Has Not Kept Pace With Increasing             01115/00
                               Internet and Intranet Risks




60 Semiannual Report to The Congress
   Appendix ...,....,. .... ,.....                       Months Old                      Action


Date of          Audit                                                                             Projected Final
Report           Number                                          Title                              Action Date


09/29/98          A82410       Management Control Review of Conference Site Selections              10/15/99

09/30/98         A72705        Arthur Andersen LLP, Fiscal Year 1997 Comments and Suggestions for 02115/00
                               Consideration (Management letter)




                                                                                         Office ofInspector General 61
The GSA OffIce of thc Chief Financial Officer providcd the following information.
GSA Efforts to Improve Debt                                  •    In April 1999, an Inspector General audit of the
                                                                  Heartland Finance Center's non-Federal claims
Collection                                                        collection process disclosed that the Center was in
During the period April 1, 1999 through September 30,             compliance with all requirements of the Debt
1999, GSA cfforts to improve dcbt collcction and rcducc           Collcction Improvcment Act.
the amount of debt written off as uncollectible focused on
upgrading the collection function and enhancing debt         • Persistent claims coordination efforts among regional
management. These activities included the following:           contracting officers, Finance Center personnel, and
                                                               Treasury claims offset personnel continue to strengthen
• From April 1, 1999 to September 30, 1999, the GSA            our collection efforts. As a result, our Federal debt
  Finance Centers continued to refer delinquent non-           collections are taking less time and allowing us to
  Federal claims to the U.S. Department of the Treasury        dedicate more resources to non=Federal collection.
  (Treasury) for collection cross-servicing. FY 1999 col-
  lections on these claims, to date, exceed $12 million.     • Our increased activity on Reimbursable Work Authori-
  Administrative offsets on over 1,300 claims have             zations collections has resulted in resolving delinquent
  resulted in an additional collection of $3.4 million.        bills. We have increased the number and dollar amount
  GSA also collects non-Federal claims using Pre-              of billings under the Memorandum of Understanding
  Authorized Debits (PADs). From April 1, 1999 to              between the Federal Telecommunications Service and
  September 30, 1999, 27 PADs totaling $5,640 were             the Defense Finance and Accounting Service. In
  issued.                                                      addition, we have increased the collection of
                                                               outstanding accounts receivable from the Department
• GSA continues to improve its new Accounts                    of Defense through the manual On-line Payment and
  Receivable Claims System (ARCS). The use of this             Collection system.
  system will improve tracking, follow-up, referral, and
  reporting of claim functions. ARCS also allows             • We are continuing to work with the Federal Supply
  multiple users to simultaneously access claims data.         Service to collect $11.4 million in delinquent billings
  The system was enhanced to handle claims related to          from the District of Columbia Government.
  the collection of past due industrial funding fees owed
  by contractors.



Non-Federal Accounts Receivable

                                                      As of                   As of
                                                   April 1, 1999        September 30,1999           Difference

   Total Amounts Due GSA                            $28,048,802             $38,843,640           $10,794,838

   Amount Delinquent                                $18,388,523             $18,601,440              $212,917

   Total Amount Written
   Off as Uncollectible
   Between 4/1/99 and
   9/30/99                                           $2,903,092



62 Semiannual Report to The Congress
                            Appendix V-Reporting




The table below cross-references the reporting require-     Report No. 96-829 relative to the 1980 Supplemental
ments prescribed by the Inspector General Act of 1978, as   Appropriations and Rescission Bill and thc National
amended, to the specific pages where they are addressed.    Defense     Authorization Act         is    also  cross-
The information requested by the Congress in Senate         referenced to the appropriate page of the report.



  Requirement                                                                                              Page
  Inspector General Act
     Section4(a)(2) - Review of Legislation and Regulations ..................................... 29
     Section 5(a)(l) - Significant Problems, Abuses, and Deficiencies .......................... 2, 14,20
     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies .............................................. .2, 14, 20
     Section 5(a)(3) - Prior Recommendations Not Yet Implemented .............................. .41
     Section 5(a)(4) - Matters Referred to Prosecutive Authorities .................................. 36
     Sections 5(a)(5) and 6(b)(2) - Summary ofInstances Where
      Information Was Refused .......................................................... None
     Section 5(a)(6) - List of Audit Reports .................................................. .44
     Section5(a)(7) - Summary of Each Particularly Significant Report......................... 2, 14,20
     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs .................................................................. 35
     Scction 5(a)(9) - Statistical Tables on Managemcnt Decisions on
      Recommendations That Funds Be Put to Better Use ....................................... 34
     Section 5(a)(10) - Summary of Each Audit Report over 6 Months
      Old for Which No Management Decision Has Been Made ................................ None
     Section 5(a)(1l) - Description and Explanation for Any Significant
      Revised Management Decision ..................................................... None
     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . ................................. None
  Senate Report No. 96-829
     Resolution of Audits ................................................................ 33
     Delinquent Debts ................................................................... 62
  National Defense Authorization Act ..................................................... 54




                                                                                          Offiee of Inspector General 63
64 Semiannual Report to The Congress
Make
like
it"s
your
money~
              •
It           IS.
To report suspected waste,
fraud, abuse, or mismanagement
in GSA, call yo,ur
              -
Inspector General's Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:    GSA, IG, Hotline Officer
             Washington, DC 20405

            U.S. General Services Administration
            Office of the Inspector General
